<html>
<title> - WILDFIRE PREPAREDNESS</title>
<body><pre>[Senate Hearing 108-18]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-18

                         WILDFIRE PREPAREDNESS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

TO GAIN A FIRST HAND UNDERSTANDING OF THE IMPACTS OF LAST YEAR'S FIRES 
        AND THEN LOOK FORWARD TO THE POTENTIAL 2003 FIRE SEASON

                               __________

                             MARCH 13, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

87-020              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                Frank Gladics, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     4
Conlin, Linda Mysliwy, Assistant Secretary of Commerce for Trade 
  Development, accompanied by Doug Baker, Deputy Assistant 
  Secretary for Tourism, Department of Commerce..................    16
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Feinstein, Hon. Dianne, U.S. Senator from California.............     2
Kyl, Hon. Jon, U.S. Senator from Idaho...........................     2
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     3
Scarlett, Lynn, Assistant Secretary, Policy, Management and 
  Budget, Department of the Interior.............................     8
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    25
Tenny, David, Deputy Under Secretary, Natural Resources and the 
  Environment, Department of Agriculture; accompanied by: Jerry 
  Williams, Director of Fire and Aviation Management, Forest 
  Service; Corbin Newman, 
  National Fire Plan Coordinator, Forest Service; Jack Blackwell, 
  Pacific Southwest Region, Forest Service; and Alice Forbes, 
  Assistant Director of Operations, Fire and Aviation Management.     5

                                APPENDIX

Responses to Additional Questions................................    45

 
                         WILDFIRE PREPAREDNESS

                              ----------                              


                        THURSDAY, MARCH 13, 2003

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:22 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig [presiding]. Good morning, everyone. The 
Senate Energy and Natural Resources Committee will come to 
order. Chairman Domenici is en route back, but he wanted us to 
get started. We have had a series of two votes on the floor. So 
not to detain any of you any longer and also to make sure we 
have adequate time for your testimony and any questions we may 
ask, let us start.
    It is my pleasure to welcome Assistant Secretary of Policy 
Management and Budget for the Department of the Interior, Lynn 
Scarlett. Thank you for being with us this morning.
    Assistant Secretary, U.S. Trade and Development Agency, 
Linda Conlin. Linda, thank you for being with us this morning.
    And the Deputy Under Secretary of Natural Resources in the 
Department of Agriculture, Dave Tenny. Dave, thank you for 
being with us.
    We are here today to review the fiscal year 2002 fire 
season and the impact of those fires on the environment and 
local business in an effort to examine preparedness and the 
impact that could occur in the coming fire season.
    I ask the witnesses to summarize their statements. And I 
ask unanimous consent that their full statements be a part of 
the record. Each member will then be recognized in order of 
arrival for purposes of statement and questioning.
    So it is an important hearing this morning, as we have done 
examination to continue and to have a broader understanding 
also of the impact of fire, not just on the environment, but on 
the commerce and the economies of communities associated and/or 
adjacent to fires.
    With that, let me turn to the ranking member of the 
committee for any opening statement he would make, Senator 
Bingaman.
    Senator.
    [The prepared statements of Senators Akaka, Feinstein, Kyl 
and Murkowski follow:]
       Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator 
                              From Hawaii

    Thank you, Mr. Chairman, for holding this hearing on a topic that 
is very important for many of our communities. In Hawaii, we also have 
areas of drought and high fire risk, so this hearing is timely and 
appropriate for multiple regions of the country. I am interested to 
hear what the witnesses have to say.
    Unfortunately, it appears that forest fires are inevitable. In 
North America, extensive fires have been documented in the prehistoric 
past, in the near past when indigenous people occupied the continent, 
and in the historical post-contact past. With the dramatic increase of 
people using national forests and public lands for camping, hiking, 
off-road vehicle use and dirt bikes, the extension of residential areas 
into forest lands, and natural causes such as lightning (which caused 
15 percent of fires last year), it appears that we are going to have 
wildfires around for the foreseeable future. The question is how best 
to integrate them into forest management without sacrificing more acres 
to invasive harvesting.
                                 ______
                                 
       Prepared Statement of Hon. Dianne Feinstein, U.S. Senator 
                            From California

    Mr. Chairman, thank you for holding this hearing. Like the rest of 
us here, I care deeply about the condition of our forests as we head 
toward another fire season. What is striking to me is that all of us 
agree on about 80% of the issues here, Democrats and Republicans alike. 
I want to talk briefly about some of these areas of agreement as we try 
to figure out ways to improve the condition of our forests.
    First, we all agree that we need to train rural industries and 
empower rural communities to do fuels reduction work. It is a true win-
win for the environment and the economy to nurture small-scale rural 
businesses that use wood products. Whether they are biomass plants, 
forest products manufacturers or other industries, these small 
businesses will reduce the cost of hazardous fuel reduction efforts by 
providing an outlet for the wood.
    Second, we agree that an ounce of prevention is worth a pound of 
cure. We need to spend more money on hazardous fuel reduction, and less 
on fighting fires after they have started. In a fall 2002 report, the 
National Academy of Public Administration has suggested that 
firefighting can be made more efficient. We have a common interest in 
reining in unnecessary expenditures on fire suppression.
    Third, we agree that last year's budget was a mess. The need to 
spend all available money for fire suppression forced us to cancel 
hundreds of millions worth of contracts for hazardous fuel reduction 
and other purposes--only to restore most of the funds a year later. It 
is terribly disruptive to rural businesses to cancel contracts, and 
unnecessarily disruptive if we eventually restore the money later. We 
all agree that we need to find a way to structure our budget to avoid 
cancelling hundreds of millions of dollars of contracts with rural 
communities. We need to explore real options here--whether it's 
increasing funding for firefighting, establishing an emergency reserve 
fund in the budget, or some other option.
    Finally, all of us in the Southwest and most of us in the West have 
a common problem with beetle bark and similar forest epidemics. Over 
150,000 acres of Southern California forests are infested with bark 
beetles, posing a serious threat to communities such as Lake Arrowhead 
and Idylwild, and the Governor has declared a State of Emergency. Many 
of you have similar problems in your states. We agree that we need to 
find ways to respond quickly to these forest epidemics to reduce their 
spread if possible before they are out of control.
    I deeply hope that recognition of these areas of agreement can help 
us move forward in a bipartisan fashion to restore our mighty and 
majestic forests.
                                 ______
                                 
      Prepared Statement of Hon. Jon Kyl, U.S. Senator From Idaho

    Mr. Chairman, although I appreciate and support the need to focus 
attention on protecting communities from catastrophic wildfire, it is 
wrong to believe that limiting hazardous fuel reduction treatments to 
the wildland/urban interface provides a long-term solution to 
catastrophic wildfire and the risk it poses to forest communities. It 
is based on several errors in logic that include: 1) the only thing 
people in forest communities care about are their homes; 2) that towns 
can be isolated from catastrophic fire in the greater landscape; and, 
3) that hazardous fuel reduction around towns will solve the real 
problem, which is degraded, and declining forest ecosystems. There are 
many examples from Arizona that support my position, not the least of 
which was the Rodeo/Chediski fire, as well as the numerous community 
collaborations underway in the state.
    Forest communities want to protect more than their homes. 
Protecting property and lives in fire prone forests is important. 
However, people live in forest communities because they appreciate, and 
in many ways are dependent on, the greater forests that surround them. 
Towns and distant cities consume water flowing from forests, in 
northern Arizona tourism plays a significant role in the local economy 
and forests support the fish and wildlife habitat that are important to 
all citizens.
    The interface area is much larger for people in these towns than 
for people developing policies in Washington. For example, the Greater 
Flagstaff Forests Partnership (a collaborative group of 25 
organizations dedicated to restoring forests in and around Flagstaff) 
determined that their wildland/urban interface would cover 180,000 
acres--not a small buffer around the town. Contrary to the false 
assumption that a community will want to protect their homes first, the 
Partnership located their first treatment site at a place called Fort 
Valley. The site is strategically located to the southwest of the San 
Francisco Peaks and Kachina Wilderness Area and is designed to protect 
the peaks from fire leaving the town.
    You cannot effectively protect towns from degraded forests. 
Treating a small area around towns merely gives the illusion of fire 
protection (particularly when an adequate number of trees are not 
removed which is often the case). The Rodeo/Chediski, Viveash, Cerro 
Grande and other fires have demonstrated extreme fire behavior that 
defies suppression. Plume dominated fires, caused by high fuel loads, 
can cause burning embers and spotting miles in advance of the main 
fire. Towns are not an isolated component of the forest; they are human 
habitat in a forest ecosystem. In dry forest types the greater forest 
will always burn and so will the towns if the greater forest is 
ignored.
    Hazardous fuel reduction around towns is a short-term response to a 
symptom of sick forests, not a long-term solution. Forest fires are 
only one symptom of a sick forest. So are bark beetle outbreaks, 
declining plant and wildlife habitat, declining water yield and 
decreased recreational opportunities due to forest closures. The 
problems we are facing are much greater than the geographically 
isolated wildland/urban interface. The problem includes the entire 
forest, the total cost of suppression and the long-term ecological and 
economic cost of catastrophically burned forest. The data show that 
fire seasons are lengthening and fires are more frequent, severe and 
larger. We cannot wait until communities are protected before treating 
the greater forest. Mr. Chairman, we must fix forests with 
comprehensive restoration-based treatments that are designed to restore 
forest health while simultaneously reducing the threat of unnatural 
fire. This problem is particularly acute for my state, where it will 
only take six or seven more Rodeo Chediski fires before we have 
significantly altered the largest contiguous ponderosa pine forest in 
the world.
                                 ______
                                 
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska

    Mr. Chairman thank you for calling this hearing today regarding 
forest fire impacts and preparedness for 2003.
    This is a very important issue to my State of Alaska, and I look 
forward to hearing the testimony of today's panel.
    The 2000 and 2002 fire seasons have been some of the worst on 
record. Forest fires continue to create many problems for Americans, 
predominantly in the West.
    The danger of fires is most prevalent at the so called ``wildland-
urban interface.'' Clearly, the number of people living near wildland 
areas has increased, and this increases the likelihood of the loss of 
life and damage to property.
    As these dangers have increased, Congress has responded by 
increasing funding for fire suppression. In fiscal year 1999 Congress 
appropriated $1.1 billion for federal wildfire management and this 
funding doubled by fiscal year 2002, when Congress appropriated $2.2 
billion. These increases are important.
    I encourage this committee and Congress to continue full funding 
for fire suppression. In addition to loss of life and damage to 
property, forest fires destroy millions of acres of wildlife and 
fisheries habitat. Of course, scientific evidence shows that some fire 
is important for some forests to be healthy and grow.
    There are many unique issues relating to forest fire in my State of 
Alaska. When large forest fires break out that cannot be handled by 
first response local crews and equipment, one of 11 Geographic Area 
Coordination Centers (GACC) will provide resources for fire 
suppression. If these geographic area resources cannot adequately fight 
the fire, then the GACC requests assistance from the National 
Interagency Coordination Center (NICC).
    These resources often come from other states. Alaska is not located 
adjacent to any other state; therefore it is costly to get resources 
from other states to Alaska. Also, Alaska lacks a wide range hydrant 
infrastructure. This requires water to be transported by other means. 
This too is very expensive.
    It is important to mention the damage that has been caused to 
forests in Alaska, particularly in the Chugach Mountains, and on the 
Kenai Peninsula, by the spruce bark beetle. The spruce bark beetle has 
drastically changed some forests in my State. Over 5 million acres of 
trees in south central and interior Alaska have been lost to insects 
over the last 10 years. This infestation has been called the most 
significant terrestrial ecological disturbance to hit the south central 
region of Alaska in recorded history.
    These dead or dying trees, located near many private residences, 
are very susceptible to fire. Wildfires have occurred in these infested 
forests. Coupled with the low amount of snowfall Alaska has received 
the potential for further disaster is great.
    We must reduce the environmental restrictions that limit the 
possibility for forest management. Public land laws should not make it 
difficult to cut down the dead or dying trees that are nothing but 
potential fuel for forest fires.
    In general, this nation's policy has to allow for responsible 
forest management that includes the ability to remove, when 
appropriate, wildfire fuel from forests.
    I ask the members of this committee to keep these facts in mind as 
we consider acting on issues of federal wildfire management. We need to 
continue to fund federal fire suppression activities and require the 
Administration to work with state and local agencies in a cooperative 
manner to ensure that these fires are fought in the best possible way 
to protect people and property.
    Thank you, Mr. Chairman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. I 
appreciate the hearing.
    This is a very important set of issues. We have had several 
hearings on the subjects to be covered here. I am interested in 
two areas of concern, which I am sure the witnesses will 
address. One is the funding, and how do we avoid the situation 
we seem to have had over the last several years, where we do 
not provide adequate funds in the accounts that are intended 
for firefighting and, therefore, we shift funds from other 
accounts into those? That prevents other activities from taking 
place. So how do we deal with that problem?
    The second is the issue about legislative authority and 
what additional authority this administration is now urging on 
Congress. We expanded the authority for forest restoration 
activities substantially in the omnibus appropriation bill last 
year, and I wanted to find out, if possible, what more is 
intended.
    Thank you very much.
    Senator Craig. Well, thank you very much, Senator Bingaman.
    Let me now turn to our panelists. And we will start this 
morning with Dave Tenny, the Under Secretary of Natural 
Resources in the Department of Agriculture.
    Dave, if you would proceed, please. And yes, turn your 
mikes on. Thank you.

   STATEMENT OF DAVID TENNY, DEPUTY UNDER SECRETARY, NATURAL 
   RESOURCES AND THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE; 
 ACCOMPANIED BY: JERRY WILLIAMS, DIRECTOR OF FIRE AND AVIATION 
 MANAGEMENT, FOREST SERVICE; CORBIN NEWMAN, NATIONAL FIRE PLAN 
COORDINATOR, FOREST SERVICE; JACK BLACKWELL, PACIFIC SOUTHWEST 
REGION, FOREST SERVICE; AND ALICE FORBES, ASSISTANT DIRECTOR OF 
            OPERATIONS, FIRE AND AVIATION MANAGEMENT

    Mr. Tenny. Thank you, Mr. Chairman. It is a privilege to be 
with you today. We appreciate the opportunity to appear before 
the committee to talk about this important issue.
    I think the first thing we need to do is thank you for the 
work that was done to help us out in the omnibus appropriations 
bill for 2003. The repayment of the fire borrowing is extremely 
helpful and timely. The funding that was provided at or near 
the levels that were requested for fire operations and for 
suppression and further important aspects of the fire plan are 
appreciated.
    The additional authority for stewardship contracting is 
also greatly appreciated. And we look forward to being able to 
use those resources and that authority in a way that is going 
to be positive in addressing the concerns that we are all here 
to talk about today.
    I am joined today, for your information, by a number of 
people from the Forest Service, who have a lot to do with the 
things that we are talking about. Jerry Williams is our 
Director of Fire and Aviation Management with the Forest 
Service. Corbin Newman is our National Fire Plan Coordinator. 
Jack Blackwell is with us from the Pacific Southwest Region of 
the Forest Service. That is California. And then Alice Forbes, 
who is the Assistant Director of Operations, Fire and Aviation 
Management is out of our NICC in Boise, Idaho. And certainly 
these folks are available, if you have questions that you would 
like to direct directly to any of them. I would be happy to 
accommodate those.
    What I would like to do--you have the written testimony. 
And in our seamless fashion, we have one piece of testimony 
between the Department of Agriculture and Department of the 
Interior. I would like to summarize my remarks by addressing a 
portion of what we have stated in that testimony, and then Lynn 
Scarlett from the Department of the Interior will carry on from 
there and talk about the remainder of it.
    I would like to address three things: First, a summary, a 
very brief summary, of the 2002 fire season, what we observed, 
what occurred; secondly, an outlook of what the 2003 fire 
season might look like; and then finally, a brief discussion of 
what we are doing to prepare for this upcoming fire season.
    There is some good news about the 2002 fire season, believe 
it or not. The good news was that because of the resources that 
were made available to the agencies, we were able to succeed in 
prosecuting fires on an initial attack in 99 percent of the 
cases. That is important. We were able to pre-position our 
resources where we needed them, where we knew the fires were 
likely to be severe. And because of that, we were able to 
minimize, to a large extent, the outbreak of large 
conflagrations.
    We were also able to provide assistance to 11,000 
communities on the prevention side of the ledger. And we were 
able to provide training and equipment to 5,000 rural and 
volunteer fire departments throughout the country.
    In addition to that, and notwithstanding the severity of 
the fire season, we were able to treat 2.2 million acres of 
land in natural fuels treatment activities that needed to be 
done. That actually exceeded the target that we had set for 
ourselves between the two departments by almost 200,000 acres.
    Now there is good news and then there is other news. 
Notwithstanding the fact that we were able to contain most of 
our fires on an initial attack, those that got out of control 
were monsters. And we saw them. We heard about them. We read 
about them in the newspapers. We saw them on the national news. 
We had the worst fires recorded in the State of Arizona and 
Colorado and Oregon in their history. These were destructive 
fires. They were devastating to communities. They were 
devastating to the environment.
    We had 62 days at fire preparedness level five. That is our 
highest level of preparedness. That was a full 6 weeks ahead of 
schedule, ahead of our earliest beginning point, at which we 
reached that fire preparedness level five. It was 22 days 
longer than the record length of time that was experienced in 
2000. We saw nationally 7.2 million acres burned. And the cost 
was extraordinary in terms of the financial resources that we 
had to use to fight these fires. $1.6 billion was spent on 
suppression, the costliest fire season in history. And we all 
saw the impact that that had on the day-to-day operations of 
the agency, as we had to borrow deeply from our funds to cover 
those costs.
    That is one aspect of cost, the direct cost of suppression. 
There were other costs that were also incurred because of these 
fires. And I will just tick through them fairly quickly. There 
were costs in air quality. The Arizona Department of 
Environmental Quality determined that the Rodeo/Chediski fire 
was an air quality public health emergency in that State for 10 
days, from June 20 through June 30. That affected over 30,000 
people.
    Because we were able to deploy smoke samplers on these 
major fire sites, we were able to track this information. And 
it found, for example, in Colorado that the Missionary Ridge 
fire recorded particulate matters levels that were considered 
hazardous to people's health. That meant they would likely 
increase their visits to health care providers and cause 
respiratory problems. Downtown Denver measured unhealthy levels 
of particulate matter that were the highest ever recorded in 
that State's history.
    Smoke from the Biscuit fire in Oregon and other large fires 
in Oregon caused the Department of Environmental Quality in 
that State to issue air pollution advisories to the public. 
That is air quality.
    There were also costs in terms of habitat. The localized 
impact of some of these fires on the habitat of important 
species was also of concern to us. The Biscuit fire in Oregon, 
for example, destroyed 85,000 acres of nesting, foraging, and 
roosting habitat for the northern spotted owl.
    The Rodeo/Chediski fire destroyed 55 of the 962 identified 
protected activity centers for the Mexican spotted owl. That 
was a 5-percent decline or a 5-percent removal of those 
protected activity centers.
    The Missionary Ridge fire in Colorado burned 15,000 acres 
of lynx denning and winter foraging habitat. The Hayman fire in 
Colorado burned 22 percent of the designated critical habitat 
for the Mexican spotted owl on the Pike National Forest. And 
that included one of the two most northern sites occupied by 
this owl in recent years.
    The fire season was costly in terms of water quality. And 
we have yet to see what some of those impacts are going to be, 
especially in areas like Colorado, where the Hayman fire 
surrounded the Cheeseman Reservoir, which is a reservoir that 
provides a source of drinking water to the Denver community. We 
recall that in years past, when fires burned in Colorado around 
this area, that we had extreme cases of siltation in the rivers 
and in the reservoir that was very costly to the State to clean 
out in order to provide the supply of drinking water, let alone 
the quality of drinking water that was envisioned by the State 
under its long-term planning.
    There are other costs as well. And it would take a fair 
amount of time to go through all of them. Not only the resource 
costs, but the other ancillary economic costs to communities 
when people are displaced, when jobs are interrupted, when 
commerce is interrupted. And there is lots more to be said 
about that.
    The outlook for the 2003 season: I wish I could say that it 
is going to be a lot better. But at this point, it looks as 
though we are going to have another challenging season. We have 
a map here that will give you an idea of what it looks like. 
What you see in the red crosshatch are areas of concern where 
they are going to have above-normal--where we anticipate, 
unless weather conditions change from what we predict, we 
predict above-normal fire activity. Areas in crosshatch green 
will experience below-normal fire activity.
    As you can see, the drought that we are experiencing, which 
in some cases is the worst drought on record, is going to 
persist and intensify over much of the interior West. We have 
above-normal fire season predicted in the Pacific Northwest, 
the Northern and Central Rockies, California, portions of the 
Southwest, and in the Great Lakes.
    We are endeavoring to prepare, and I think we have prepared 
for this fire season. There are a couple of issues of 
particular concern that are important. We have roughly the same 
level of preparedness this year that we had last year. That is 
important, because the pre-positioning of resources enables us 
to prosecute fires on an initial attack effectively.
    We have been coordinating and continue to coordinate with 
the National Guard and with the Department of Defense to ensure 
that, if needed, the reserves that we called upon last year are 
going to be available notwithstanding the potential for war.
    We have cooperative agreements in place with New Zealand 
and with Australia and with the Canadians to ensure that we 
have sufficient managerial experience on large incidents should 
we need to call upon those resources.
    We have plans and contracts in place for heavy lift 
helicopters, for our modular firefighting aircraft that we have 
used in the past to ensure that we have enough aviation support 
to prosecute these fires, as well, notwithstanding the fact 
that we had to ground our C-130s and our PD4Ys because of 
fatalities that occurred last year.
    We do have some areas where we might see a bit of concern, 
as we move forward into this next fire season, probably the 
most important of which is the fact that State funds are 
declining, State budgets are in deficit. And that is having an 
impact on our first responders, who are funded at the rural and 
volunteer fire department level. Notwithstanding that, we are 
continuing to provide the support that has been given to us 
through the appropriations from Congress in providing the same 
level of help that we have provided to these local responders 
in the past.
    Now this is what we are doing in a reactive mode. But 
really, to get beyond the problem we have to be proactive, and 
I think we all recognize that. The proactive side of the ledger 
is of paramount importance. And that really is the basis for 
the President's Healthy Forest Initiative. Lynn Scarlett, who 
is here representing the Department of the Interior, is going 
to talk to that part of the equation.
    That concludes my testimony. I look forward to your 
questions.
    The Chairman [presiding]. Thank you very much, Mr. 
Secretary.
    I apologize for the delay. But I got in late on the last 
boat and had to make sure that I got back over there to make 
it.
    So thank you very much, Senator Craig, for starting the 
hearing.
    We are now going to have Lynn Scarlett, Assistant Secretary 
for Policy, Management and Budget for the Department of the 
Interior. We have your written testimony. It will be made a 
part of the record. And please proceed to summarize it for us.

   STATEMENT OF LYNN SCARLETT, ASSISTANT SECRETARY, POLICY, 
       MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you, Mr. Chairman and members of the 
committee. We really appreciate at the Interior Department 
having the opportunity to discuss this critical issue with you 
today. I would also like to thank you for the tremendous 
efforts, as Dave Tenny did, that Congress has provided us, both 
in terms of the stewardship contracting authority and the 
resources to enable us to pursue the efforts that we have 
undertaken.
    I would like to point out that since the initial funding of 
the National Fire Plan, the first year of that funding in 2002, 
the Department of the Interior has made substantial progress in 
increasing its capacity building for both initial attack and 
extended attack. We now have nearly 1,800 front line additional 
firefighters and a significant amount of additional equipment 
to enable us to do our job.
    We are confident that in the year coming forward we will be 
able to maintain the readiness that we had built up over the 
last 2 years. Firefighting, however, as Dave pointed out, is 
but one aspect of our efforts to protect communities and 
natural resources. Also key to our efforts is a more proactive 
effort to reduce hazardous fuels through a variety of treatment 
techniques essential to reducing the very unnatural levels of 
fuel buildup in our forests.
    As you no doubt have heard before, some 190 million acres 
of Federal forest and range lands in the lower 48 States face 
high risk of catastrophic fire because of the high buildup of 
dense forest materials. Reducing those fuel loads, we believe, 
is essential to mitigating the risk not only to communities, 
but also to ecosystems as well.
    Prior to the National Fire Plan in fiscal year 2000, the 
Department of the Interior completed about 480,000 acres of 
hazardous fuels reduction activities. By 2002, I am pleased to 
say that we actually completed nearly 1.1 million acres of 
fuels treatment, a more than doubling in just a 2-year period, 
showing the investment we are putting in this effort.
    Key to reducing fuels and in particular reducing risk is 
prioritizing this effort. So we are focusing our efforts on the 
WUIA, the Wildland Urban Interface Area. We are focusing on the 
municipal watershed areas. Also key is coordination. We are 
working very closely with the National Association of Counties, 
with the State foresters, with the Western Governors 
Association in collaboration to help identify priority fuels 
treatment projects. We think that this coordinated effort to 
really target our focus on priority risk areas will help us to 
get greater bang for the buck and greater risk reduction.
    As you all know and as Dave has alluded to, the impacts of 
catastrophic fires to local communities are profound, both on 
the natural resources and on lives and property. Just as a few 
examples, the Rodeo/Chediski fire inflicted enormous resource 
and economic impacts to the White Mountain Apache tribe. It 
destroyed some 60 percent of the tribe's timber, resulting both 
in loss of investment and adversely affecting long-term 
employment opportunities.
    The fire also, and other fires, have had severe impacts on 
human lives through potential flooding and erosion. High 
erosion hazards often threaten municipal watersheds, as Dave 
Tenny noted.
    Wildlife habitat also suffers. For example, if we look at 
the Biscuit fire in Oregon last summer, it destroyed some 
80,000 acres of nesting and roosting habitat for the Northern 
spotted owl. Many other species throughout the regions that 
experienced these catastrophic fires have a similar tale to 
tell.
    Many challenges, despite our advances, lie before us; and, 
hence, the President's Healthy Forest Initiative, in its effort 
to give us the tools to address some of those challenges. We 
seek to restore the lands to a condition where they can resist 
disease, where they can resist invasive species, where they can 
resist insects and hence be much less vulnerable to 
catastrophic fires, fires that can burn at extremely high and 
unnatural intensities.
    With the Forest Service, the States, tribes, and local 
partners, we are moving forward on our Healthy Forest 
Initiative. And I want to highlight just a few of those 
efforts.
    First, we have collaborative agreement with our partners to 
prioritize, as I noted, the selection of fuels treatment 
projects. This is the foundation of our 10-year comprehensive 
strategy and implementation plan. We have developed two 
guidance documents to expedite consultation on the Endangered 
Species Act, so that we can move our fuels treatment projects 
forward expeditiously while maintaining the consultation 
requirements of the Act and ensuring protection of those 
species. We have also proposed two categorical exclusions for 
hazardous fuel reduction and post-wildfire resource and 
rehabilitation.
    In addition, we had proposed, as part of that initiative, 
the stewardship contracting provisions which Congress has 
provided us. And we are now working to develop the priorities 
and outlines for implementing that contracting authority.
    We have also worked with NOAA and our Fish and Wildlife 
Service to develop guidance documents relating to taking into 
account net benefits; that is, short-term harm to species 
versus the long-term, tremendously costly harm that 
catastrophic fires can generate.
    We look forward to working with you to continue to give us 
the tools that we need to move forward expeditiously with these 
projects. We have expedited our own appeals process, not 
changing the process, keeping full access to citizens to the 
participation that they both desire and need, but through an 
expedited process ensuring that those appeals go to the front 
of the list so that they get early resolution.
    I look forward to discussing with you any future Healthy 
Forest Initiative actions that Congress might wish to work with 
us on and am happy to answer any additional questions.
    Thank you.
    The Chairman. I thank you very much for your testimony.
    [The prepared statement of Mr. Tenny and Ms. Scarlett 
follows:]

      Prepared Statement of David Tenny, Deputy Under Secretary, 
    Natural Resources and the Environment, Department of Agriculture
                                  and
  Lynn Scarlett, Assistant Secretary, Policy, Management, and Budget, 
                       Department of the Interior

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to meet with you today. Since the Department of the 
Interior and the Department of Agriculture work closely together in 
fire management and in implementing the National Fire Plan, it is 
appropriate to use one statement to talk about the 2002 wildland fire 
season, and discuss our work on the National Fire Plan and the 
President's Healthy Forest Initiative. President Bush's proposed 
Healthy Forests Initiative is based upon a common-sense approach to 
reducing the threat of catastrophic wildfires by restoring forest and 
rangeland health. Our goal is to ensure the long-term safety and health 
of communities and natural resources in our care. Our responsibility is 
to ensure the long-term health of our forests and rangelands for the 
use, benefit and enjoyment of our citizens and for generations to come.
    As we move into the 2003 fire season, fighting wildland fires is 
only one aspect of the work we must do to protect communities; we must 
also reduce the amount of hazardous fuels, and restore healthy 
ecosystems to protect communities and our natural resources.

                           NATIONAL FIRE PLAN

    With the fire adapted ecosystems of North America, we have the 
challenging task of reducing fuels and the vulnerability of our 
communities to wildfire while restoring the health of our forests and 
rangelands. This challenge is national and long term in scope. Of the 
three factors that most influence wildland fire behavior--weather, 
topography, and fuel--land managers can effectively affect only fuel. 
Since the severe 2000 wildland fire season, Congress has funded the 
National Fire Plan for federal agencies to work on a long-term program 
to reduce fire risk and restore healthy fire-adapted ecosystems in the 
Nation's forests and rangelands. Federal agency field units, States, 
Tribes, and other partners have been busy, putting into action the 
concepts of the National Fire Plan. Bipartisan Congressional support 
provided the funding necessary in 2002 for 17,400 federal fire 
employees and thousands of contract fire personnel to prevent, detect, 
and suppress wildland fires, treat hazardous fuels, and provide 
leadership for the organizations. In 2002, despite the severe drought, 
the Forest Service and the Department of the Interior accomplished a 
total of 2.2 million acres of hazardous fuels reduction; of that, 
almost 1 million acres were in the wildland urban interface. This is 
168,000 acres more than 2001. We also reduced hazardous fuels on 
slightly more than 1million additional acres through wildland fire use. 
For 2003, we anticipate treating 2.5 million acres of hazardous fuels 
of which 1.1 million acres are in the wildland urban interface.
    Recently, the Forest Service, Department of the Interior, National 
Association of State Foresters and National Association of Counties 
agreed to a collaborative process to identify fuels treatments. In 
order to more expeditiously protect communities and improve forest and 
rangeland health, the parties agreed to coordinate this process across 
ownerships and jurisdictions.

                            2002 FIRE SEASON

    The 2002 wildland fire season was intense, difficult, and historic. 
Long-term drought over most of the West contributed to an earlier and 
very severe fire season. Fires burned in every type of vegetation from 
grasslands to subalpine pine and in every type of ownership. Of the 7.2 
million acres burned in 2002, only a few wildfires were the large, 
uncontrolled fires seen on television. These were the fires that burned 
in and around wildland-urban interface areas requiring extensive 
evacuations of communities, subdivisions, and ranches. Fire activity 
was intensified by unfavorable weather conditions and in many 
situations posed a safety threat to firefighters and members of the 
public.
    Large wildfires can create unhealthy air conditions. In 2002, at 
the request of certain local health agencies, the Forest Service, 
Bureau of Land Management, Fish and Wildlife Service, and EPA 
cooperated in deploying air quality monitors near where the public 
might be affected by the smoke. On the Hayman and Rodeo-Chedeski fires, 
the smoke at all of the special sites did not reach unhealthy levels as 
defined by the National Ambient Air Quality Standards or state alert 
levels. On the Missionary Ridge fire, the monitor at Bayfield exceeded 
the one-hour PM2.5 alert levels, which means that air quality was more 
hazardous to people's health. State of Colorado monitoring in downtown 
Denver, however, measured unhealthy levels and were the highest levels 
ever measured. The Biscuit Fire in Oregon also had high (unhealthy) 
levels from wildfire smoke. The smoke from these wildfires reached more 
unhealthy levels and was of a much longer duration than any that might 
be produced by prescribed burning. Prescribed burns are of shorter 
duration, are done under conditions that disperse smoke, and are in 
compliance with states' smoke management programs.
    When we realized the potential severity of the 2002 wildland fire 
season, we hired seasonal firefighters early and we staged firefighting 
crews and equipment in locations where they could be mobilized quickly 
and effectively. Federal wildland fire agencies had enhanced initial 
attack capabilities in Arizona, New Mexico, Colorado, Montana, and 
Nevada by pre-positioning resources ranging from air support, to hand 
crews, to engines in strategic locations. Although several fires were 
large, the additional resources made a difference in reducing the size 
of many of the fires. Without the added National Fire Plan support, our 
response would not have been as strong. Initial attack suppression 
activities were highly successful, as about 98% of 2002 wildfires were 
stopped during initial attack. We sustained 62 days of Preparedness 
Level 5, our highest level of activity, 22 days longer than the 2000 
wildland fire season, another record year. Modular Airbourne 
Firefighting System military aircraft were based in Colorado, Utah, 
Washington, Idaho, and California to support ground fireline building 
activities. One battalion from the U.S. Army, Task Force Destroyer (1/5 
FA 1st Battalion, 5th Regiment) Fort Riley, Kansas was also assigned 
for 30 days. International firefighting assistance was provided by 
Canada, Australia, and New Zealand. These international resources 
provided a total of thirty-nine 20-person hand crews, and 131 overhead 
or management personnel assisted in fire suppression activities across 
the West.

                   ENVIRONMENTAL EFFECTS OF WILDFIRE

    For most of the twentieth century, all wildland fires were 
generally thought to be bad. As a result, fires were suppressed as soon 
as possible to reduce their negative effect. Aggressive fire 
suppression was effective but had an unintended consequence. The 
frequency and intensity of wildfires appears to have increased due to 
the buildup of fuels such as dead and dying trees and dense growth of 
flammable vegetation. Fire exclusion resulted in woody species 
encroachment into shrublands and grasslands, altered wildlife diversity 
and populations patterns through habitat modification, and increased 
disease, insect infestations, and invasive plant species. This build up 
of fuel coupled with other factors like drought have raised increasing 
concerns about the overall wildland condition and particularly the 
health of the forest and rangelands.
    These conditions of increased fuel and severe drought have resulted 
in increasingly large and severe wildland fires. Damage to watersheds 
is the most undesirable environmental impact associated with these 
large and severe fires. Damage to wildlife habitat and forests, 
temporary but reduced air quality, and erosion, also are the 
undesirable effects of large and severe fires. Where these types of 
fire occur in the wildland urban interface, the risks to people and the 
expense are greater.
    However, where the natural fire return interval has been maintained 
through prescribed burning or where the buildup of fuels, such as thick 
understory and dense trees, have been thinned by environmentally sound 
forest management practices, these wildfires can be beneficial. This is 
particularly so in plant communities that have historically experienced 
frequent light fires such as ponderosa pine. Light and moderate fires 
generally leave the soil intact, recycle nutrients, and stimulate the 
regeneration of many beneficial plant species. These fires often create 
a patchy mosaic on the landscape, increasing the overall biological 
diversity or health of the area over the long term.

                  2002 REHABILITATION AND RESTORATION

    Rehabilitation and restoration are critical parts of responding to 
the aftermath of wildfire. These efforts focus on lands unlikely to 
recover quickly and naturally from wildfire. Rehabilitation activities 
generally take several years and include reforestation, watershed 
restoration, road and trail rehabilitation, noxious weed control, and 
fish and wildlife habitat restoration. Native plants and trees are used 
whenever possible.
    The majority of the work to be accomplished in FY 2003 results from 
the negative fire effects from the Rodeo/Chediski, Hayman, McNally, 
Biscuit, and Missionary Ridge Fires of 2002. Treatments planned in FY 
2003 will accelerate the restoration of forested ecosystems and 
wildlife habitat, will more rapidly improve water quality, and allow 
for earlier access for visitation to National Forests by returning 
recreational facilities to safe conditions.
    Previous commitments and priorities for rehabilitation of damage 
caused by the fires of 2000, are also the focus of this years planned 
rehabilitation and restoration efforts. These priorities include 
completing multi-year reforestation work already underway with 
nurseries, and continuing watershed and road work provided for in the 
Bitterroot Settlement agreement.
    Through Burned Area Emergency Response (BAER) plans in 2002, $72 
million was made available for immediate emergency stabilization after 
fires. This post-fire work focuses on preventing additional damage to 
the land, and minimizing threats to life or property resulting form the 
effects of fire. This work typically begins before the fire is 
completely contained and is generally accomplished with the first year 
after the fire.
    Like the Forest Service, the Department of the Interior experienced 
a demanding workload for stabilizing and rehabilitating burned areas 
after wildfires. Interior made $78.5 million available for emergency 
stabilization and burned area rehabilitation last year, with $15 
million carrying over to continue stabilization efforts this year. The 
carryover from FY 2002 plus the FY 2003 appropriation will provide the 
Department with $35 million for emergency stabilization and 
rehabilitation in FY 2003. This funding has been targeted to priority 
projects to protect public health and safety, protect municipal water 
supplies, threatened and endangered species habitat, and prevent 
invasive plant establishment.

                                 SAFETY

    We thank you and your committee for your support of the men and 
women who make up our firefighting corps. Our firefighters do an 
impressive job under adverse conditions and they deserve our thanks and 
admiration. Firefighting is a high risk, high consequence activity. 
Following the Thirtymile Fire tragedy in July 2001, where four 
firefighters lost their lives, we reexamined our safety programs and 
made a number of improvements. Through training and reinforcement, we 
are emphasizing management of firefighter fatigue, use of the 10 
Standard Fire Orders and the 18 Watch Out situations. We have revamped 
our training to include findings and lessons learned from the 
Thirtymile incident. Firefighter briefings now include standard 
components that address planned suppression operations, hazards and 
risks, critical fuels and weather conditions, and other crucial 
information. We have an improved fire shelter which is used as a ``last 
resort'' tool and a key component of fire fighter safety equipment.
    Despite our efforts, there were 23 fire-related Federal, states, or 
volunteer fatalities in the 2002 wildland fire season. Over half the 
fatalities were contractors to federal agencies; most of the fatalities 
were the result of vehicle accidents, some attributed to fatigue. 
Therefore, we are including in FY 2003 contracts federal firefighter 
work-rest guidelines to minimize fatigue for contracted firefighters 
and support personnel. Six fatalities resulted from 3 aviation 
accidents. The Forest Service and Bureau of Land Management 
commissioned an aviation blue-ribbon panel that surveyed the aviation 
program and made findings. Based on the findings, the Departments made 
several changes to the aviation program, including extensive 
inspections of airtankers as well as grounding other aircraft until air 
worthiness can be assured. In addition, Sandia Lab in Albuquerque is 
developing increased aircraft safety criteria for Forest Service 
contracted aircraft.

                        WHAT COMMUNITIES CAN DO

    More than 2,000 structures were lost to wildfires last year. Of the 
structures destroyed, 835 were primary residences, 46 were commercial 
properties, and 1,500 were outbuildings. Communities can help 
themselves to prevent this sort of loss in the future. Indeed, with our 
State Forester partners through the State Fire Assistance program, we 
assisted over 11,000 communities by developing local projects on fire 
prevention, fire suppression, hazard mitigation, and creating FIREWISE 
communities. In 2002, both Departments helped over 5,000 rural and 
volunteer fire departments by providing training, protective fire 
clothing, and firefighting equipment through the Volunteer and Rural 
Fire Assistance programs. Additional efforts will promote partnerships, 
community action plans, and projects where communities can themselves 
reduce fuel hazards, improve building codes, and create fire resistant 
landscapes.
    National fire prevention teams were activated throughout the year 
in many Western states where fire danger was extreme. Teams were 
dispatched for month-long assignments to assist local resources in 
assessing human-caused fire starts. Once assessments are complete, 
these trained fire prevention professionals prepare a site-specific 
strategy of unique fire prevention solutions for the area. Fire 
prevention teams were placed in Salt Lake City, UT, Santa Fe, NM, 
Custer, SD, Seattle, WA, Sequoia National Forest, CA, and Colorado 
Springs and Durango, CO.
    In addition, citizens can take action through the FIREWISE program, 
which helps people who live or vacation in fire-prone areas educate 
themselves about wildland fire protection. Homeowners can learn how to 
protect their homes with a survivable space and how to landscape their 
yard with fire resistant materials. A consortium of wildland fire 
agencies that include the Forest Service, the Department of the 
Interior, the National Fire Protection Association, and the National 
Association of State Foresters sponsors the program.

                                 COSTS

    There is no question that fighting these fires was expensive--the 
total cost for both Departments was almost $1.6 billion. The Forest 
Service transferred approximately $1 billion from other accounts to 
fund fire suppression costs. We want to thank Congress for acting upon 
the Administration's request for repayment. The Forest Service has 
established a priority process to repay the accounts from which funds 
were transferred, and every effort will be made to repay these in a 
timely fashion.
    Interior also had emergency wildfire response costs that exceeded 
funding available within the fire management appropriation by more than 
$250 million last year. The Secretary transferred $240 million from the 
construction and land acquisition accounts of the land management 
bureaus and BIA to cover most of the additional costs for emergency 
suppression and stabilization. The fire program also reprogrammed $14 
million intended for fire facility maintenance and construction and 
hazardous fuels reduction projects.
    Recent criticism of how the Forest Service and the Department of 
the Interior spend funds to suppress wildfire is of great concern to 
the Departments and the agencies. In response to criticisms that 
occurred during this past fire season, Forest Service Chief Dale 
Bosworth in cooperation with Interior agencies promptly dispatched an 
accountability team to review specific expenses and policies that may 
have contributed to unnecessary expenditures on large fires. As a 
result of this and other interagency efforts, new procedures have been 
established that will focus on cost containment strategies in 
suppressing wildfire and eliminating unnecessary expenses; establish 
clearer financial management accountability of incident commanders and 
line officers; and provide for improved controls and incentives for 
suppression costs.
    Additionally, the Forest Service and the Department of the Interior 
will fully implement performance measures that reflect the level of 
risk reduced by treatments as part of the interagency effort to 
increase accountability of Federal wildand fire management efforts.
    In implementing these performance measures, it is important to 
emphasize that firefighter safety and the protection of communities 
will not be compromised. As we focus on an efficient wildland 
firefighting organization, we must not lose sight of the fact that fire 
suppression often is an expensive operation where major costs will be 
most substantially reduced by accomplishing the goals of the 
President's Healthy Forests Initiative and the National Fire Plan.

                  2003 SEASONAL WILDLAND FIRE OUTLOOK

    At this time, our experts at the National Interagency Coordination 
Center (NICC) in Boise, Idaho, indicate that long term drought persists 
and is expected to intensify over much of the interior West. Mountain 
snow pack and precipitation remains below average for most of the 
western states with the exception of northern and central California. 
The outlook for February through April calls for above normal 
temperatures and below normal precipitation over the Pacific Northwest, 
Northern Rockies, portions of the Great Lakes, and the Ohio River 
Valley. Unless the weather patterns provide relief, 2003 has the 
potential for an above normal fire season in these areas, especially in 
the interior West, the Lake states, and northern Maine.
    Drought conditions and dense vegetation increase the risk of 
wildfires that burn longer, faster, and more intensely. We know that 
fire historically played a positive role in sustaining ecological 
stability. Where appropriate, we will manage wildland fire use as 
prescribed in land and resource management plans. However, because of 
the altered condition of many forests and grasslands, use of fire for 
forest management has become much more complex. It requires scientific 
support and new tools to help plan, implement and monitor fire 
management activities. One of these tools is the President's Healthy 
Forest Initiative.

               THE PRESIDENT'S HEALTHY FOREST INITIATIVE

    In May 2002, working with the Western Governors' Association and a 
broad cross-section of interests including county commissioners, state 
foresters, tribal officials and other stakeholders, we reached 
consensus on a 10-Year Comprehensive Strategy and Implementation Plan 
to reduce fire risks to communities and the environment. The plan sets 
forth the blueprint for making communities and the environment safer 
from destructive wildfires. The plan calls for active forest management 
focusing on hazardous fuels reduction both in the wildland-urban 
interface and across the broader landscape. Active forest management 
includes: thinning trees from over-dense stands that produce commercial 
or pre-commercial products, biomass removal and utilization, and 
prescribed fire and other fuels reduction tools.
    In order for the 10-Year Implementation Plan to succeed, the Forest 
Service and Interior agencies must be able to implement critical fuels 
reduction and restoration projects associated with the plan goals in a 
timely manner. Often, however, the agencies are constrained by 
procedural requirements and litigation that delay actual on-the-ground 
implementation. As we testified last September, the three factors most 
contributing to project delay are: 1) excessive analysis; 2) 
ineffective public involvement; and 3) management inefficiencies. We 
have reached a point where we must change to allow agencies to 
implement management decisions to achieve healthy forests and 
rangelands.
    On August 22, 2002, President Bush announced Healthy Forests: An 
Initiative for Wildfire Prevention and Stronger Communities. The 
Healthy Forest Initiative would implement core components of the 10-
Year Implementation Plan, enhancing and facilitating the work and 
collaboration agreed to in that document.
    The President's initiative directs us, together with Council on 
Environmental Quality Chairman Connaughton, to: improve procedures for 
collaborative selection and implementation of fuels treatments and 
forest and rangeland restoration projects; reduce the number of 
overlapping environmental reviews; develop guidance for weighing the 
short-term risks against the long-term benefits of fuels treatment and 
restoration projects; and develop guidance to ensure consistent NEPA 
procedures for fuels treatment activities and restoration activities. 
We will report today on several actions the Secretaries have taken to 
accomplish these objectives.

                         ADMINISTRATIVE ACTIONS

    The USDA Forest Service and the Department of Interior have 
proposed two categorical exclusions that can be utilized in certain 
circumstances by the agencies to carry out hazardous fuel reduction and 
post-wildfire resource activities and activities infrastructure 
rehabilitation. These two categorical exclusions were based on an 
analysis of over 3,000 hazardous fuel reduction and post-wildfire 
restoration projects. Our analysis of these activities has shown that 
these types of narrowly defined actions have not resulted in 
individually or cumulatively significant environmental impacts, and 
therefore, may be conducted without preparation of an environmental 
assessment or environmental impact statement. We expect to publish 
final categorical exclusions later this year.
    A categorical exclusion may not always be the appropriate level of 
analysis; each project is different and some may not meet the criteria 
for use of a CE. Therefore, Chairman Connaughton has issued guidance 
which clarifies the policy on the preparation of environmental 
assessments for fuels treatments. The clarification addresses the 
purpose and content of a model Environmental Assessment for fuels 
treatments. The guidance is being applied initially to ten Interior and 
five Forest Service projects to test the adequacy of the model EA to 
address the impacts typically found in fuels treatment projects. 
Process lessons learned in developing these projects will be shared 
widely throughout all agencies for application to additional projects.
    The Forest Service has proposed revising its implementing 
regulations under the Appeals Reform Act. Proposed changes are designed 
to encourage early and meaningful public participation in project 
planning, rather than focusing the public on review of a completed EA 
and on appeal of a decision after it has been made. The proposal gives 
the line officer discretion over the timing of the 30-day notice and 
comment period, rather than requiring that it take place after the 
environmental assessment is complete. There would also be limitations 
on appeals based on early project involvement and on raising new issues 
that had not previously been raised. A final policy is expected to be 
published later this year.
    The Department of the Interior's Office of Hearings and Appeals 
(OHA) and the BLM are proposing a series of changes to their 
administrative rules, to streamline their appeals process for hazardous 
fuels treatment projects. Interior wants to ensure that appeals from 
decisions involving either forest or rangeland health are resolved 
quickly without depriving the public of the right to participate in the 
administrative process. Frequently, delaying a project can be the same 
as stopping a project. The proposed rules would require OHA to resolve 
any appeal involving forest or rangeland health within sixty days from 
the filing of all paperwork from the parties. Forest and rangeland 
health appeals will not be subject to any different standards than 
other types of appeals. Under this proposal, they must simply be 
handled first. The proposed rules also contain a number of technical 
changes that will allow OHA to do its job more efficiently and apply 
rules more consistently.
    The Fish and Wildlife Service and the National Oceanic and 
Atmospheric Administration issued a joint guidance memo on Endangered 
Species Act Section 7 consultation in October, 2002. It emphasizes the 
use of programmatic interagency consultation under the Endangered 
Species Act for Healthy Forests Initiative projects. It also emphasizes 
the grouping of multiple projects into one consultation. These agencies 
also issued joint guidance in December, 2002 providing direction on how 
to fully consider and balance potential short- and long-term beneficial 
and adverse impacts to endangered species when evaluating proposed 
Healthy Forests Initiative projects.
    In addition to these Healthy Forests Initiative actions, the Forest 
Service has proposed the addition of three new timber harvest 
categorical exclusions (CEs) to its authorities. Projects would include 
limited timber harvesting of live trees, salvage harvests, and 
sanitation of dead and dying trees for insect and disease control. 
Projects of this nature occur routinely as part of managing National 
Forest System lands.

                          LEGISLATIVE ACTIONS

    In August 2002, the Administration transmitted legislation to 
implement the Healthy Forest Initiative. Recently, the Congress passed 
the Consolidated Appropriations Resolution, 2003 [PL 108-7]. Section 
323 of the Act contains stewardship contracting language that includes 
the Bureau of Land Management and extends authority through fiscal year 
2013 for the Forest Service to enter into long-term stewardship 
contracts with the private sector, non-profit organizations, local 
communities, and other entities. Long-term contracts provide 
contractors the opportunity to invest in equipment and infrastructure 
needed to productively use material generated from forest thinning to 
make forest products or to produce energy. The Departments are 
currently developing public involvement methods and are working with 
the state Governors, counties and interested parties to develop 
procedures for stewardship contracting.
    As the Committee knows, the President's budget included proposals 
for the Healthy Forest Initiative. We look forward to working with your 
Committee to develop Healthy Forest legislation and pledge our 
cooperation.

                                SUMMARY

    With the outlook for an upcoming severe fire season, the five 
federal land-managing agencies and our partners at the State and local 
level are doing all that we can to be prepared. Safety of firefighters 
and communities is our first priority. With the fire adapted ecosystems 
of North America, we have the challenging task of reducing fuels and 
the vulnerability of our communities to wildfire while restoring the 
health of our forests and rangelands. This challenge is national and 
long term in scope. The 10-Year Implementation Plan and the Wildland 
Fire Leadership Council will continue to foster cooperation and 
communication among Federal agencies, States, local governments, 
Tribes, and interested groups and citizens. With your continued help, 
all the agencies can accomplish robust performance-based programs for 
the nation's forests and rangelands, and do so in full collaboration 
with state governments, communities, Congress and the American people.
    We look forward to working with you in implementing the agency's 
programs and would be happy to answer any questions.

    The Chairman. And now we will take Linda Conlin, Assistant 
Secretary for the U.S. Trade and Development. It is nice to 
have you here. And the same holds for you as regards your 
testimony.

   STATEMENT OF LINDA MYSLIWY CONLIN, ASSISTANT SECRETARY OF 
  COMMERCE FOR TRADE DEVELOPMENT, ACCOMPANIED BY DOUG BAKER, 
 DEPUTY ASSISTANT SECRETARY FOR TOURISM, DEPARTMENT OF COMMERCE

    Ms. Conlin. Thank you, Mr. Chairman.
    Thank you, Chairman Domenici and members of the committee, 
for inviting me here to testify before the Energy and Natural 
Resources Committee. I would like to submit my written 
testimony for the record.
    Last fall, my colleague from the Department of Commerce, 
Deputy Assistant Secretary for Tourism, Doug Baker--who is with 
me here today--and I joined colleagues from the Departments of 
Agriculture and Interior on visits to States that were severely 
impacted by what is recognized as the second largest fire 
season that we have had in the last 50 years.
    It was during a town hall meeting in Show Low, Arizona, 
that I came to understand the concerns of ranchers, business 
owners, families, and local county officials and mayors. The 
people of Show Low were deeply impacted by the fires. And they 
were very fearful of what they might face in the future, if 
their concerns about forest management were not addressed.
    They asked that the management of public lands promote 
stability and predictability in the use and maintenance of the 
public lands surrounding their communities. And they ask that 
the managers of these public lands be allowed the flexibility 
to adapt to changing social, economic, and ecological 
conditions.
    Today what I would like to share with you is the connection 
between tourism and these devastating fires and the impact upon 
tourism and what we, within the Department of Commerce, can do 
to help restore tourism to the gateway communities affected by 
these fires.
    Often when we think of tourism in America, we think of 
Disney World, Las Vegas, and the Big Apple. And these certainly 
are popular destinations. But tourism is also about thousands 
and thousands of small and medium-sized businesses throughout 
the United States. In fact, 90 percent of tourism-related 
companies are small and medium-sized businesses. There are 
communities like Show Low all over this country that depend 
upon restaurants, hotels, motels, local historic and natural 
attractions, and other service-oriented businesses for revenues 
and for jobs. When visitation is disrupted, it is these 
companies and their employees who feel the most immediate 
impact.
    And we also know that international travelers, unfamiliar 
with State geography, are likely to believe that a fire in one 
region could prohibit travel to an entire State or, I would 
also venture to say, to an entire region. And this can have 
severe economic consequences for communities around our natural 
areas, especially when you consider that the National Park 
Service estimates that 20 percent of its visitors are, indeed, 
international visitors.
    In fact, many of us remember the 1988 fires in Yellowstone. 
The number of visitors to Yellowstone dropped by almost 400,000 
when compared to 1987 visitation numbers.
    Now while complete data is not available to assess the 
impact of the fires of 2002, I would like to quickly just cite 
one or two examples from Arizona. According to the Arizona 
Department of Revenue, Arizona lodging and lodging tax revenue 
were down nearly four percent in 2002 compared to 2001. 
According to the National Park Service, 2002 visitation to 
Arizona's national parks were down eight percent compared to 
2001. State park visitation in 2002 was down over ten percent 
compared to 2001.
    Looking at the parks closest to the fires, however, the 
declines were even more stark. And they were in the range of 
between 45 to 56 percent. And I think those facts are 
illustrative of the impact of these fires.
    I would like to just talk briefly about what the Department 
of Commerce is doing overall to help tourism. According to our 
latest data, domestic travel is improving following the 
devastating events of September 11. However, we do not expect 
to reach peak levels, which we saw in the year 2000 until the 
year 2004. Long term, if we look at international travel and 
tourism to the United States, it looks more promising with 32-
percent projected growth from 2001 to 2006.
    After September 11, Secretary Evans gathered his colleagues 
in the Cabinet to form what was called the Federal Tourism 
Policy Council. And these are agencies and departments 
throughout the Federal Government whose policies and programs 
impact tourism. This is one thing that we are doing to help 
make sure that Federal policies are coordinated.
    The Commerce Department is also involved directly with 
travel and tourism in the West. I took part in the signing of a 
historic agreement with the Western States Tourism Policy 
Council to help States and gateway communities adjacent to 
public lands. Last year this policy council received a $400,000 
grant for a public/private partnership to help restore travel 
to gateway communities in these States.
    And lastly, in the recently signed 2003 omnibus bill, the 
Department of Commerce received $50 million to undertake an 
advertising and promotional campaign to encourage international 
travelers to visit the United States. Of course this campaign 
will involve the promotion of what I call our national 
treasures or the natural areas, which are so popular with 
international visitors.
    Mr. Chairman, I hope, however briefly, that I have been 
able to give the committee some sense of how catastrophic fires 
can impact tourism in local communities and how the Department 
of Commerce, within the parameters of its mission, can help to 
alleviate this impact.
    Again, Mr. Chairman, I want to thank you and the members of 
this committee for holding this hearing. And I look forward to 
your questions.
    The Chairman. Thank you very much. That is a very 
interesting aspect that many do not consider. And we are glad 
to have you, and it is good to have this on the record.
    [The prepared statement of Ms. Conlin follows:]

  Prepared Statement of Linda Mysliwy Conlin, Assistant Secretary of 
                     Commerce for Trade Development

    Thank you, Chairman Domenici and Members of the Committee for 
inviting me to testify before the Energy and Natural Resources 
Committee. Mr. Chairman, I want to thank you for holding this hearing.
    As we all know, last year we witnessed the second largest fire 
season in the past 50 years. And Colorado, Arizona and Oregon recorded 
their largest fires in the last century.
    Last fall, my Deputy, Doug Baker, and I joined colleagues from the 
Departments of Agriculture and Interior on visits to several states 
impacted by fire. I personally visited Colorado and Arizona. It was 
during my visit to Show Low, Arizona that I truly came to understand 
first-hand the long-term natural and economic devastation that these 
communities face when fire threatens and overruns them.
    I flew into Show Low from Phoenix, which required flying over the 
Rodeo-Chediski burned areas. That was my introduction to the Show Low 
community. It was during a town hall meeting in Show Low the next day 
that I came to understand the concerns of the ranchers, business-
owners, families and local county officials and mayors. The people of 
Show Low were deeply impacted by the fires and they were very fearful 
of what might face them in the future if their concerns about forest 
management are not addressed.
    Our national forests and public lands are managed for the benefit 
of the national public, but the residents of Show Low and other 
communities we visited made it clear that the manner in which they are 
managed most directly impacts the gateway communities near these lands.
    They asked that the management of public lands promote stability 
and predictability in the use and maintenance of the public lands 
surrounding their communities. And they asked that the managers of 
these public lands be allowed the flexibility to adapt to changing 
social, economic and ecological conditions.

                          TOURISM AND SHOW LOW

    Often, when we think of tourism in America, we think of Disney 
World, Las Vegas, and the Big Apple. But tourism is really about 
thousands and thousands of small businesses throughout the United 
States. In fact, 90 percent of tourism-related businesses are small and 
medium sized businesses.
    There are communities like Show Low all over this country that 
depend on restaurants, hotels and motels, local historic and natural 
attractions, and other service-oriented businesses for revenues and for 
jobs. When tourism is disrupted, it is these businesses and their 
employees who feel the most immediate impact. There is an economic 
ripple effect when people start losing jobs in industries directly-
related to tourism.
    While we are still calculating overall international arrivals data 
and the economic impact of the fires on travel in Arizona, lodging, 
national and state park visitation for 2002 show sluggish performance 
in the specific areas affected by the fires. According to the Arizona 
Department of Revenue, Arizona lodging and lodging tax revenue were 
down nearly 4 percent in 2002 compared to 2001.
    According to the National Park Service, 2002 visitation to 
Arizona's national parks was down 8 percent compared to 2001. Arizona 
state park visitation in 2002 was down over 10 percent compared to 
2001. Looking at the parks closest to the fires, however, the declines 
are even more stark.
    Fool Hollow Lake and Tonto Natural Bridge were two of the nearest 
state parks to the massive Rodeo-Chediski fire. While the fire raged in 
June and July, 2002, Fool Hollow attendance was down over 45 and 56 
percent respectively, compared to 2001. Tonto Bridge was down nearly 34 
and 45 percent for the same comparison period. Year to date totals for 
Fool Hollow were down nearly 31 percent compared to 2001, Tonto Bridge 
totals were down nearly 17 percent.
    The Arizona Office of Tourism reported that wildfires might have 
affected travel decisions for national park visitors. The Rodeo-
Chedeski fire and media reports of wildfire activity likely affected 
visitor patterns and discouraged travel to some of these areas. We know 
that international travelers unfamiliar with state geography are likely 
to believe that, for example, a forest fire in Yellowstone could 
prohibit travel to the entire state of Wyoming. International and 
domestic travelers may alter their plans to visit Western destinations, 
especially.

               WHAT IS DOC DOING TO HELP TOURISM OVERALL?

    My colleagues on the panel are the experts when it comes to land 
management and I will leave that to them, but I would like to take this 
opportunity to address some of the efforts made at the Department of 
Commerce to increase the number of international visitors coming to the 
United States. Although many of these activities were initiated in 
response to the effects of the September 11, 2001 terrorist attacks on 
tourism in the United States, these efforts will also benefit tourism 
in fire-impacted communities as well.
    According to the latest data, domestic travel is on the mend, but 
slower than anticipated. Levels comparable to 2000 will not be reached 
until 2004. The year 2000 is considered to be a peak year for 
international tourism.
    While the long-term forecast for international travel and tourism 
to the U.S. looks promising with 32% projected growth from 2001 to 
2006, the Department of Commerce is forecasting a flat 2002. Again, it 
won't be until 2004 before we reach the peak of 2000 international 
visitation levels.
    We have been aggressive in communicating to travelers from around 
the world that it is safe to visit the United States. Since September 
11, I have been heading up the Tourism Policy Council on behalf of 
Secretary Evans to help ensure that U.S. tourism interests are 
considered in Federal decision-making, and to help coordinate travel 
and tourism efforts among 15 Federal agencies and offices.
    The Commerce Department is also involved directly with travel and 
tourism in the West. I took part in the signing of an historic 
agreement with the Western States Tourism Policy Council (WSTPC), to 
set up a strategy of mutual support, coordination and cooperation that 
will benefit states and towns throughout the West that are dependent 
upon travel and tourism. The WSTPC is a coalition of the tourism 
departments of 13 states (Hawaii, Alaska, Washington, Oregon, 
California, Nevada, Idaho, Utah, Arizona, Montana, Wyoming, Colorado, 
New Mexico).
    In October of last year, the Department of Commerce awarded a 
$400,000 financial assistance award to the WSTPC. The funds were made 
available through the Commerce Department's Market Development 
Cooperator Program (MDCP), a public-private partnership developed to 
help small- and medium-sized U.S. firms expand exports that support 
jobs. The MDCP is a competitive matching grants program that builds 
partnerships by providing federal assistance to non-profit 
organizations involved in export promotion.
    WSTPC will conduct training programs to help small and medium size 
businesses in the gateway communities to develop effective marketing 
strategies to attract international visitors. Trade missions to key 
markets in Europe and Asia by gateway communities' business 
representatives will provide opportunities to meet with potential 
buyers of their services and develop new business. An important element 
of the project is the partnerships that will be established with public 
and private sector suppliers locally, nationally and internationally.
    We have also launched a special public/private sector Tourism 
Export Expansion Initiative in Japan to help buoy travel flows to the 
United States, including the Western States. Japan has historically 
been a top source market for visitors to the United States.
    In addition, in the recently signed 2003 Omnibus bill the 
Department of Commerce received $50,000,000 to support an international 
tourism promotion campaign to encourage international travelers to 
visit the United States. Secretary Evans will appoint representatives 
from the travel and tourism industry to a U.S. Travel and Tourism 
Advisory Board to provide advice on appropriate activities for the 
funding.
    In an effort to help states seeking aid to offset firefighting 
costs, the Department of Commerce, through one of the International 
Trade Administration's sister agencies, the Economic Development 
Administration (EDA), has provided direct assistance to communities 
affected over the past few years by fire disasters.
    In 2000, Los Alamos County, NM received a $100,000 investment to 
develop a strategy for addressing and mitigating long-term economic 
impacts in Los Alamos County resulting from fires. The evacuation of 
18,000 people from Los Alamos caused one to two weeks of business 
closures and resulted in incalculable stress on area businesses. As you 
may recall, the fires in Los Alamos forced the closing of the Los 
Alamos National lab, which stops the economic engine for the community 
and to a great extent, for the region.
    Also in 2000, Pueblo of Jemez, NM, received a $415,000 investment 
from EDA to help establish a permanent base-of-operation as a first 
step in implementing the Walatowa Woodlands Initiative. This project 
was designed to enhance forest health and reduce the threat of 
catastrophic wildfire through fuel-load reduction.
    In 2001, in the Village of Pecos, NM a $400,000 investment was 
awarded for the construction of a 5,000 square-foot fire facility to 
house fire and emergency vehicles; provide the training, conference, 
and office space necessary for the planning and execution of major 
firefighting and fire danger reduction efforts; and will contain 
emergency medical services vehicles.
    These investments in improving fire protection will reduce the cost 
of development and increase the chance of private investment in tourism 
related industry. Reducing insurance costs in this heavily forested 
area will help existing businesses weather the loss sustained because 
of the Viveash Fire and improve profitability for existing and emerging 
businesses.
    In September of 2002, EDA provided assistance to two Arizona 
communities as well. The Rodeo-Chediski Fire burned 276,000 acres of 
the Fort Apache Reservation. A EDA grant was provided to assist the 
White Mountain Apache Tribe with purchasing equipment to salvage and 
process the charred timber still standing in the area devastated by the 
fire. The grant award was $168,573 with a local match of $42,076 for a 
total of $210,649.
    The second award of $100,000 was provided to the Northern Arizona 
Council of Governments to develop a long-term economic revitalization 
plan for Navajo, Apache, Coconino, and Yavapai Counties. The plan will 
assist the impacted communities to recover, and be more resilient in 
future disaster situations.
    Mr. Chairman, I hope that I have been able to give the Committee 
some idea of how catastrophic fires can impact tourism in local 
communities and how the Department of Commerce, within the parameters 
of its mission, can help to alleviate this impact.
    Again, Mr. Chairman, I want to thank you for holding this hearing 
and I look forward to your questions.

    The Chairman. I am going to proceed based upon time of 
arrival. So, Senator Craig, you are first. Senator Bingaman, 
Senator Thomas, then I will go unless some other Senator is in 
a hurry.
    Senator Craig.
    Senator Craig. Well, I thank all three of you for being 
here today to testify about a much broader aspect of the 
character of fire and wildfire on our public lands and 
resources than I think most people realize. I know oftentimes 
when I am here and there is a fire in Idaho, I get people 
asking me, ``Is it safe to go to Idaho?'' If they have a trip 
planned, it is, ``Should I cancel?'' Most have no idea of the 
expanse or size of those Western States. And they are 
concerned. They express a great deal of concern.
    I am going to read a statement. Dave, you do not 
necessarily have to react to it. But my question will follow 
then. It will be a comparison of what a State agency might be 
doing under the directive that I am going to read versus what 
the U.S. Forest Service will be doing under the new stewardship 
authority that you have.
    ``Governor Gray Davis recently determined that three 
California counties are at risk of imminent fire danger and 
declared the counties a state of emergency. Through the 
proclamation, the California Department of Forestry shall 
immediately,'' and I quote, ``assist local jurisdictions to 
prepare safety plans for evacuation, expedite the clearing of 
dead, dying, and diseased trees that interfere with emergency 
response and evacuation needs, and may enter into contracts for 
the procurement of materials, goods, and services. Some 
contract guidelines are suspended. Competitive bid 
requirements, to the extent they would prevent, hinder, or 
delay the clearing of public evacuation corridors.''
    That is in the context of the emergency declaration. Then 
the Governor issued a press release criticizing the passage of 
the stewardship contracting because it would weaken protection 
of California's national forest. The provision would also allow 
private contractors to harvest valuable trees in exchange for 
thinning brush and undergrowth in forests considered to be at 
risk to wildfire.
    And lastly, Governor Davis said, ``These ill-advised policy 
changes will fail to protect California's forests and will 
threaten our natural legacy for future Californians.''
    Now I do not want to get involved in a political battle 
here today. But we have State agencies doing one thing in the 
name of imminent danger and high risk because of the condition 
of forests, State forests in this instance. And we know these 
States forests are intermingled with Federal forests in many 
instances. And yet we have some who are at high levels in State 
government criticizing the very action we are taking here and 
find it necessary to take to improve the health of these 
forests.
    What is different about what the U.S. Forest Service may be 
doing under its new authority versus what you understand the 
State California Department of Forestry would be doing under 
its emergency authority that the governor has so described?
    Mr. Tenny. I think the way to describe it is there is a 
parallel that could be drawn between that situation and a 
wildland fire situation, because what we are really seeing out 
there with respect to this particular beetle infestation, which 
now covers over 150,000 acres on the San Bernardino National 
Forest, it is spreading at a rate of as much as 500 acres a 
day. It is just an amazing----
    Senator Craig. So it is predominantly a beetle-caused 
situation.
    Mr. Tenny. Yes. And so it is almost as if it is a fire 
situation out there, and we are responsive to it. We have to be 
reactive to it. And that is what requires then emergency 
actions to be taken, declarations of emergency. And we are 
working with the State. There is a task force that has been put 
in place that is working cooperatively with San Bernardino 
County and CalTrans and California Department of Forestry to 
address this situation. And we are meeting on it today with the 
Department of the Interior to put our action plan together so 
that we can address this situation in an emergency fashion, 
because it is an emergency.
    Senator Craig. But my question is: What is the Governor 
saying you can do on State lands in California but is 
criticizing that which we might be willing to do and can do by 
new authority on Federal lands in California?
    Mr. Tenny. Well, there is--the ownership patterns out there 
are intermingled. And in order to put a footprint on the 
landscape that you want to achieve to reduce the overall risk, 
not only to the private lands, the private land holders, the 
residents, what are also the values that we want to protect and 
maintain on the Federal land, you have to have consistency of 
policy and approach.
    The stewardship contracting authority that you mentioned, 
for example, is a way to look at a landscape. It is end results 
oriented. You take--the idea begins with what you want to 
achieve on the ground and then moves you over a period of time 
toward that end. And it requires a full integration of 
resources and policies in order to make it work as well as it 
might.
    And I might add, it is also a means of treating the 
landscape before we get to the emergency situation, to get 
ahead of the curve to the extent that we can, so we do not have 
to scramble in an emergency like we so often do. But as far as 
the authorities go and as far as what needs to be done and the 
timeliness of it, there is no difference between a piece of 
Federal land and a piece of State land with respect to risk.
    Senator Craig. My time is up. Please take this note and go 
back and ask the Chief: What is the difference in the San 
Bernardino Forest that would cause them to act that they are 
not doing in the Nez Perce Forests of Idaho and the Red River 
drainage in relation to Elk City? Because we have a wildfire of 
bug infestation and death going on there.
    Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    According to the Washington Post last week, there was a 
hearing over in the House Appropriations Interior Subcommittee. 
Chief Bosworth said his agency was struggling to develop a 
long-term solution to a perennial problem; that is, finding 
enough money to put out hundreds of wildfires each year. In 
most cases, the agency transfers money from other accounts to 
pay for firefighting, a practice that lawmakers have 
criticized.
    Here is a quote from Chief Bosworth. He says, ``The worst 
thing we could do is be back in a situation like last year. It 
is absolutely crazy to continue year after year wondering if we 
have to transfer money to cover fire costs.'' Then a little 
later, the article quotes Chief Bosworth as saying ``The Forest 
Service is planning for a budget shortfall this summer.'' He 
expects to transfer up to $612 million now targeted for fire 
prevention to fire suppression.
    And he thinks it is crazy for us to do this year after 
year. Is that not exactly what we are doing? I mean, is there 
anything that is going to happen between now and the fire 
season to head off this exact problem that he is bemoaning 
here?
    Mr. Tenny. I think there are a lot of ideas that have been 
floated for addressing this recurring problem. One of the 
things that Chief Bosworth mentioned, which is very helpful, 
was this flexibility that was provided in the appropriations 
bill for fiscal year 2003. It allows us to transfer or move 
suppression dollars to preparedness dollars as needed, in order 
to pre-place resources in those areas where we are going to 
find, or where we expect fire severity to be the greatest. That 
enhances our ability on initial attack. That will ultimately 
reduce costs. It has the impact of reducing cost, to the extent 
that we can keep a fire from growing into a large 
conflagration.
    The issue of what to do for the long term is one that, 
frankly, will have to be addressed together because of the 
difficulty of that situation. Our annual appropriations are 
funded at a 10-year average. It is very difficult to determine. 
Although we can have an outlook, until the fires start to burn, 
it is difficult to determine exactly what kind of fire activity 
and what cost is going to be incurred for the upcoming season. 
We use our averages. And our funding levels have been 
increasing, based upon those averages. We do the best that we 
can with the available authority that we have to minimize the 
disruption to the agency when we are in a position where we 
have to borrow. But there are some long-term options that we 
could work on together and consider.
    Senator Bingaman. Yes. Let me just say, I think this notion 
that your funding ought to be determined on the basis of a 10-
year average, there is nothing written in stone that I am aware 
of that says that. If we have a fire problem in the West--we 
did last year, we did the year before, we are going to again 
this year--we ought to put some extra money in and deal with 
it.
    Another issue I would be interested in, we have this 
terrible problem throughout New Mexico, and particularly in 
northern New Mexico, as a result of the bark beetle having 
killed out a tremendous number of our trees and expected to 
kill out a lot more. Is there anything being requested by the 
administration in the way of resources to deal with that 
particular problem?
    Mr. Tenny. We are doing a lot of--there are a couple of 
areas. One is in research, where we are doing research on this 
kind of activity so we can understand it better. There is a lot 
of good work that is going on in New Mexico, as you know, to 
look at how to get ahead of that curve because it is, like I 
mentioned before, like a fire. And it does become a reactive 
situation rather than proactive. We anticipate----
    Senator Bingaman. This is long-term research you are 
talking about, right? You are not suggesting you have any 
resources to deal with the problem this year or next year.
    Mr. Tenny. Research is one aspect of it. What the agency is 
doing in cases where we have these big outbreaks is 
prioritizing so that we, first of all, protect those 
communities and structures and resources that are going to be 
at imminent risk because of the outbreak and then try and 
contain it so that it does not spread further to those areas 
that are presently not experiencing that kind of activity.
    What we do have coming forward that will be helpful is some 
of the authorities that we are seeking under--that we are 
putting in place or the administrative actions that we are 
putting in place under the Healthy Forest Initiative that will 
enable us to move more quickly and be more responsive in some 
of these areas. The stewardship contracting can also be helpful 
on the prevention side.
    On the proactive side, we are using the resources that we 
have in those regions to address the situation as quickly as we 
can, going through the regular process that we normally would 
have to go through.
    Senator Bingaman. My time is up, Mr. Chairman. Thank you.
    The Chairman. Thank you, Senator.
    Senator Thomas.
    Senator Thomas. Thank you, sir.
    Ms. Conlin, I mentioned the fire in Yellowstone having to 
do with travel. What would you do about a fire in Yellowstone?
    Ms. Conlin. Well, Senator, one of the challenges that we 
have, and Senator Craig pointed this out earlier, is that 
perception often is not close to reality. And oftentimes our 
visitors, particularly our international visitors, have an 
exaggerated view of devastation and extended devastation. So 
the important thing that we need to do is provide accurate 
information and to help promote our destinations, our natural 
parks.
    Senator Thomas. All right. That is fine. The point is: In 
the park, you cannot do anything about avoiding fires. You do 
not fight fires. They just are natural and go on, which is kind 
of difficult sometimes.
    I notice, Mr. Tenny, that you have talked about the plans 
here. And we are providing funding for 17,000 employees and so 
on. And you indicated that maybe, in terms of prevention, 2 
million acres last year were dealt with. It appears to be 190 
million acres that has to be done. Are we making--I went to the 
Forest Service Foundation meeting in Cody last year and they 
had a plan, and it just was not being implemented. We just are 
not moving very fast on terms of the prevention aspect. How do 
you react to that?
    Mr. Tenny. Probably in much the same way you do. It is a 
very difficult problem. And the problem, simply stated, is that 
our fuels are accumulating faster than we are treating them.
    Senator Thomas. Well, what is the primary inhibition for 
moving a little more?
    Mr. Tenny. There are a number of factors. Of course funding 
is always a factor. Process is always a factor. Chief Bosworth 
put out a report that was entitled ``Process Predicament,'' 
which identified some of the hurdles that agency has to clear 
and that the agency ought to improve upon in order to be more 
proactive. There are disruptions that occur when we have a 
severe fire season, when personnel have to be pulled from----
    Senator Thomas. I understand. But we really need to focus 
in on what the problem----
    Mr. Tenny. Yes.
    Senator Thomas. The fact is the environmental--you know how 
to manage fires in the Forest Service. You know how to take 
care of bark beetles. That can be done. Are there environmental 
restrictions that keep you from doing the things that you know 
how to do?
    Mr. Tenny. A lot of times it is the pace at which we are 
able to put actions on the ground. And sometimes that is--and 
frequently that is a function of the time frame within which we 
have to move through our process. The Healthy Forest Initiative 
is intended to provide tools that will move us through that 
process more quickly without sacrificing the values that we 
associate with that process in terms of----
    Senator Thomas. I understand. But there has been thinning, 
for example, commercial thinning, going on in Wyoming for a 
good long time. It works. All you have to do is have a contract 
manager.
    And it seems like we always talk about the problems. We 
talk about the damage that has been done. But we do not seem to 
talk a lot about what the inhibition--what is prohibiting us 
from moving more quickly. I mean, 17,000 people. I realize most 
of those would be firefighters. But we really need to be able 
to get on the ground a little more than we have, it seems to 
me.
    Mr. Tenny. It certainly does start on the ground. And I 
observe that in terms of the will within the agency, the will 
is there. And there is a great desire to move forward. That 
will sometimes meets headlong with frustration because of the 
process that we have to go through in order to get what we need 
to get done on the ground.
    Senator Thomas. I guess that is what I am saying to you. 
Instead of just having three pages of talking about all the 
things that are going on, it seems to me that the professionals 
ought to say, ``Here are the major obstacles. And here is what 
we think can be done about them,'' because we keep hearing the 
same thing, frankly. I mean, forest fires have been going on 
for a long time, but more particularly in the last couple of 
years.
    And for instance, 4Y airplanes: You know, we have had some 
real problems in Wyoming with the airplanes. The 130's perhaps 
are a different situation. But I would have to tell you that I 
think the FAA ought to be the people who decide what is going 
on with the airplanes, not the Forest Service. And they 
grounded the 4Ys. And there are lots of good reasons why they 
probably do not need to. At any rate, you might want to take a 
look at that.
    Thank you.
    The Chairman. Thank you very much.
    Senator, it is my turn, but I will yield to you. I will 
follow you.
    Senator Smith. Well, thank you, Mr. Chairman.
    And, Dave, it is good to see you. Appreciated your coming 
to Oregon last year, last summer, for a meeting.
    And, Mr. Chairman, I have asked that my full statement be 
included in the record.
    The Chairman. It will be included.
    [The prepared statement of Senator Smith follows:]
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon
    Thank you, Mr. Chairman, for holding today's hearing. It is 
essential that we continue an active dialogue between policy-makers, 
appropriators, and federal agencies to ensure that the menace of 
wildfires is being attacked on all fronts as effectively as possible. 
These hearings are also important for the public to gain a better 
understanding of wildfire issues and about the imminent threats to 
their public forests. I'd also like to thank Dave Tenny for being here 
today. Early last summer, Dave joined me out in Oregon for a very 
successful public meeting about wildfire in Redmond.
    Let me first address the impact of last year's wildfires. The 
nation's largest and most destructive fire was in my state. The Biscuit 
Fire burned half a million acres, much of which was high intensity, 
incinerating 80,000 acres of spotted owl habitat. Owl populations are 
expected to decline by twenty percent. The fire also burned 99% of a 
treasured wilderness area visited by thousands of people a year.
    Last fall, a number of Senators and I requested that the General 
Accounting Office investigate the environmental impacts of catastrophic 
wildfires. This investigation will also be looking at how federal 
agencies take these effects, both actual and potential, into account in 
the land management process. In other words, how are the risks of 
catastrophic wildfire weighed in environmental documentation. I believe 
the results of this investigation will be very helpful to this 
Committee as we continue our dialogue on wildfire and forest health 
issues.
    I am also very interested in learning more about the effect of 
wildfire on tourism and recreation. For over a decade, rural 
communities in Oregon have been told that as their mills close and 
timber jobs are exported to other countries, a new recreation-based 
economy will emerge. The fact that Oregon leads the country in hunger 
and unemployment partially dispels that theory. The fact that each year 
we lose large tracts of back-country forests to wildfire, and whole 
communities are evacuated, further impacts the potential for tourism.
    As we approach the 2003 wildfire season, I have serious concerns 
about the effectiveness of fuels reduction and forest health efforts on 
the ground. Whether funding or litigious obstruction is the culprit, 
not enough dollars are reaching the ground, the backlog of fuels 
treatment is growing, and I expect many communities in my state will 
again be staring down a wall of flames. It is frustrating to me because 
scientists know what needs to be done, industry has new technologies to 
accomplish it--yet the two never seem to meet.
    Again, Mr. Chairman, I greatly appreciate your strong focus on 
forest health issues, and I look forward to working on a west-wide 
basis to neutralize the specter of catastrophic wildfire.

    Senator Smith. On Senator Thomas's point, there is a 
University of Oregon report that the Forest Service and the BLM 
in Oregon and Washington were given $242 million for fiscal 
year 2001. That is specifically for national fire plan 
activities. Of that, about 10 percent, in other words $25 
million, was used to procure goods and services, such as 
thinning, brushing, et cetera. But of the $25 million, only 
$8.2 million was used for actual thinning work. So that is 3 
percent of the $242 million allocated to Oregon and Washington. 
So I guess my question is: Where did the other 97 percent go?
    Senator Bingaman. Mr. Chairman, we need to cut back on what 
goes into Oregon and Washington. It is obvious.
    [Laughter.]
    Senator Smith. I was just stunned to see these reports. And 
I just wondered if you can shed a little light on it, because--
--
    Mr. Tenny. I have not seen the reports directly. But what 
you are saying certainly stirs a chord within. I would expect 
that what we are seeing is a look at fire plan dollars that 
include suppression activities. The Biscuit fire, for example, 
was $150 million just to fight the fire.
    And you make a great point. What happens if we could divert 
those resources to the prevention side rather than the reactive 
side?
    Senator Smith. I am just making the point that I think we 
have the cart before the horse.
    Mr. Tenny. Yes.
    Senator Smith. And I think that is the whole logic behind 
the Healthy Forest Initiative. And I am not blaming any of you. 
I am just saying we are fighting fires, and we ought to be 
thinning for forest health, because there is an environmental 
benefit to that as well. And to the point, I mean, those who 
would say ``Just leave it alone, let it burn''--just the 
Biscuit fire, I wonder if my colleagues realize that a half a 
million acres burned with enormous intensity. And it 
incinerated 80,000 acres of spotted owl habitat, 80,000 acres 
of an endangered species. Owl populations are expected to climb 
by 20 percent.
    The fire also burned 99 percent of the whole wilderness 
area; 99 percent of it is just gone. I have been there. I have 
seen it. It is just sticks. And it is hideous looking. And so 
all of the riparian areas have been cooked as well. And this 
was an area that was visited by thousands of people that do not 
have anything to visit anymore.
    There is clearly a lose-lose going on. We are losing a 
whole lot more to fire than we ever were to chainsaws. And it 
does seem to me that the promise made to these timber-dependent 
communities is that ``We will replace your timber industry with 
a tourism industry.'' But nobody goes to look at sticks and a 
moonscape. They are just not interested in that.
    It has just left us in a terrible situation in rural 
places. And I would just encourage you good folks to see if we 
can do more with those roughly $250 million at the front end 
instead of the back end, because both the environment and the 
economy are getting reamed in this process.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I would like to talk about three areas as quickly as I can. 
First, let me state for the record, with reference to the 
stewardship contracts and agreements that were provided for in 
the supplemental, I have taken--I have had the opportunity to 
read that in its entirety and read the history of the five 
years of experimenting that have taken place in the Forest 
Service, by the Forest Service, with reference to this 
approach.
    Frankly, I think the tremendous amount of negative--or the 
negative attitude that has arisen with reference to it is ill-
placed, unless you all choose in the BLM and the Forest Service 
to pervert the intentions of that provision on stewardship 
agreements. It is not intended to be a new logging contract 
arrangement. It is intended to be a tool to permit you to clean 
up the forests, maintain them under contracts whereby others 
would do that for you in exchange for taking from that forest 
things of value to them, be determined in advance and managed 
properly.
    Frankly, I believe the tool is an exciting one. And I urge, 
to the extent that you have any impact in it, that you use it 
properly and that you not circumvent the logging laws, whether 
you like the logging laws or not. It would seem to me this is 
something we have been waiting for. It is there, and now we 
ought to use in properly.
    As an example, Senator Bingaman asked about the beetle 
infestation up there in New Mexico. Part BLM, part Forest 
Service, he tells me. It would seem to me that right now you 
have one option. One option would be to let a logging contract. 
That would never work. Nobody would let you do it, to remove 
this, to rend this blight of trees that are all infested.
    The other would be to pay for it and go out and do it 
yourself. I do not think that is going to happen, spend the 
money to go do it through the Forest Service.
    The other would be some kind of agreement that is 
prescribed under this stewardship contract arrangement. And I 
would urge that not only there, but you begin to look at that 
and not wait forever because it seems to be a common sense 
approach to moving at some of these areas. It is not limited to 
infestation.
    But would you agree with me that you could look at that, 
and that might be an approach, where there is BLM and Forest 
Service land in a totally blighted area? Either of you, Lynn or 
Mr. Secretary of Agriculture.
    Ms. Scarlett. Senator, thank you very much. We do think, as 
you have said, that the stewardship contracting authority gives 
us a tremendous tool to try get ahead of the game here. And as 
soon as we received that authority, we began sitting down on an 
interagency basis with the Forest Service and all of our 
bureaus, land management bureaus, to develop criteria that do 
indeed focus on just exactly what you say; that is, bringing 
these forests to health.
    We have, I think, three elements to that. One is good 
planning so that we have identified ahead of time the key areas 
in high risk and in need. Two, we are actually prioritizing 
through collaboration so we get to where communities need the 
resources to go. And then three, a focus on the actual results. 
Is this going to bring the forests to health, reduce risk? So 
we think that this is a very good tool to do just what you 
said.
    The Chairman. The other thing I did not mention: Obviously, 
if there were thinning and managing in advance, infestations 
would be much better controlled. Even the one in our State, 
which is not as big as the one previously discussed, would 
clearly not spread as fast or gobble up so much land. When 
everything is that close and it catches, the contagion just 
goes like a wildfire.
    Let me move on to just a couple of other things. And then 
we will go to Senator Wyden.
    From my standpoint, I want to concur and urge for this 
record and to the administration that one of the serious 
problems that we have had since President Bush took office and 
before, is that we never have enough money for the emergencies. 
Therefore, everything that is well planned during the year gets 
robbed of money to pay for the emergency maintenance and upkeep 
and prevention.
    I think that will be a topic this year under the existing 
budget. And I personally say I am going to urge that we either 
do something in a supplemental to make up for what I think is a 
$500 million to $650 million shortfall. But to my way of 
thinking, I joined this committee and decided to take it and be 
chairman if we are in control here for 6 years because I 
thought it would take a long time to change what we have been 
doing to make more common sense out of our practices. And I 
still feel that way. And one thing that seems to me to be 
absolutely imperative is that we do a better job of managing, 
maintaining, and thinning these forests.
    And might I ask, can you state for the record as to both 
Departments where we are with reference to maintenance and 
management thresholds? Where are we with reference to planning 
management and maintenance across the forests? And tell us what 
the next steps are in terms of better management, as you have 
them planned. Would you do that for the record, please, both of 
you?
    All right. Thank you very much.
    Senator Wyden.
    Mr. Tenny. Perhaps the place to start there----
    The Chairman. Well, we will get that in writing.
    Mr. Tenny. Oh, okay.
    The Chairman. I mean, if you want to give a half-minute 
statement----
    Mr. Tenny. Be happy to.
    The Chairman. I would like you to give it in detail so our 
staff can have it and take a look at it.
    Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I think the point 
that you have made, Mr. Chairman, and the point that Senator 
Bingaman has made is critical.
    I would just say to my colleagues that Mr. Tenny is a good 
man. He has been very helpful to this committee. For example, 
we would not have the county payments legislation without Mr. 
Tenny. He has really reached out. I do not want to be hard on 
Dave Tenny today.
    But I think, with respect to the fire plan, it is time to 
end the shell game, folks. There is a real shell game going on 
out there, where everybody says that implementing the fire plan 
is a big deal, and then you do not put the resources into 
actually getting the work done.
    I am going to leave here in a couple of minutes and go to 
the Budget Committee where I am going to offer an amendment to 
increase funding authority for implementing the fire plan. I 
think Senator Domenici's and Senator Bingaman's earlier 
statements have reflected this bipartisan concern.
    I look at these numbers, and particularly for the Fire 
Service, they are not even close to adding up. Let me just give 
you one example. Last year, $1.6 billion was borrowed just on 
the suppression account. The budget this time calls for $800 
million. So you scratch your head and you say, ``Everything we 
are hearing from the scientists now is that we are going to 
have infernos all over the West this summer.'' I have clippings 
from all over my State. I am sure that is true in New Mexico, 
and Idaho, and all over the West.
    $1.6 billion was borrowed last time for suppression, while 
this budget provides $800 million for suppression. I think we 
have all seen the bipartisan concern that we would like to get 
away from suppression and do more of what would be termed 
ecologically sound forest management, and just have not been 
able to get the resources for that either.
    I do not like to shoot the messenger because the message is 
a tough one--but my question for Dave Tenny is: What will you 
support by way of a bipartisan effort in the budget to get real 
on this funding question? My first choice would be to double 
the budget authority so that we could implement this fire plan.
    Dave, you obviously cannot speak for the administration. I 
understand their budget authority. But tell us how in the world 
we are going to come close to implementing this fire plan with 
the resources that have been proposed and how you are going to 
react to an effort in the Budget Committee to get some more 
resources.
    I think flexibility is fine, Dave. Make no mistake about 
it. We like that. It is clear on the ground that flexibility is 
the key. But flexibility cannot be a substitute for being in 
the ballpark with respect to resources. And we are not in the 
ballpark.
    For purposes of today, all you can give is a personal 
opinion, because you cannot speak for the administration. But 
how are you going to react to my efforts to try to get a more 
realistic level of funding for the fire plan, an effort that is 
going to begin in about 20 minutes?
    Mr. Tenny. I think the safest thing I can say is: I am 
going to watch you with great interest. Obviously, the budget 
has been put forward. And we know what the levels of funding 
are that were provided in the 2003 budget. They were nearly to 
the levels that were--the appropriations bill for 2003 was 
nearly to the levels of the 2003 budget that was put forward. I 
acknowledge that there is a problem that exists. I think we all 
recognize that. And there are opportunities to address that.
    There have been a number of ideas that have been floated. 
For example, there was an idea that was floated in the budget 
proposal, not this last one but the one before, to create a 
permanent authority, for example, that would allow a reserve to 
be in place to address some of the shortfalls on a permanent 
basis. That is one idea.
    There are other approaches that are out there. And the 
discussion that is taking place is an important discussion. The 
outcome is something that I think we all have to look together 
at resolving, based upon the competing priorities and pressures 
that are on the budget, obviously, and in terms of what makes 
sense. And I think that is a discussion that is beginning that 
we need to have and continue.
    Senator Wyden. Well, a big chunk of the West is going to 
become a rural sacrifice zone, if we do not fund the fire plan 
properly. I, for one, am just not going to sit by and let these 
communities and the good people that are in these rural areas 
lose their world. And that is what is going to happen. So this 
is not an abstract question.
    In 20 minutes, we will see where the administration is. I 
am anxious to work with you. Of course I am going to work with 
Chairman Domenici and Senator Craig. We have done all of this 
in a bipartisan way. I will support what the administration 
seeks to do on flexibility. I think that is constructive in a 
number of these areas, to get away from this one-size-fits-all 
approach to natural resources policy.
    But when you borrow $1.6 billion last year for fire 
suppression, and all the science indicates that we are going to 
have infernos this summer, and then the budget comes in with 
$800 million for fire suppression, you are not in the ballpark. 
You are just not in the ballpark. We have to figure out on a 
bipartisan basis how to do better.
    Mr. Chairman, I look forward to working with you towards 
that end. And I thank you.
    The Chairman. If you do not do it on the committee today, 
we will talk about it on the floor----
    Senator Wyden. Absolutely.
    The Chairman [continuing]. On the budget resolution.
    Senator Wyden. Thank you.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. And once again, 
I look forward to explaining our efforts again relating to our 
geography. And as it relates to forest fires, in Alaska, we 
have just come to accept, as a routine course, that during the 
summer we will have fires. We will have acres and thousands and 
thousands of acres up in smoke. And it is just something that 
we deal with because we live in a State that has huge 
geography. And we have come to accept that as, almost, as a 
matter of course, which is relatively unfortunate.
    And it is particularly unfortunate when these fires come 
down into the areas where we do have population centers. And I 
think we have been lucky over the years that we have not had 
very serious fires that threatened our residents. But you can 
only press your luck so long.
    And when we look at the plans that other States are able to 
utilize, for instance, if a large fire breaks out somewhere 
else, you have your geographic area coordination centers, and 
they can provide the resources for the fire suppression. If 
that does not work, you can go to the National Interagency 
Coordination Center, get assistance there.
    But you are talking about States that have borders with 
other States. And in Alaska, we border Canada. We are in a 
unique situation there, where we do not have the assistance of 
our neighbors. So for us to get the additional fire suppression 
help, it is very expensive. It is very costly.
    Simply because we are so huge in terms of our geography and 
our size, it is impossible to be connected to any kind of a 
reasonable hydrant system. So just the restrictions that we 
have in getting water to put out the fire is extremely 
expensive.
    But the big issue that we have that has caused more 
consternation to Alaskans is the infestation of the spruce bark 
beetle. And we are looking at a situation where, in the past 10 
years, we have lost over five million acres of trees in south 
central and interior Alaska. If you do not know Alaska, these 
are the parts, this is the part of the State where we do have--
this is where our population centers are, five million acres of 
trees.
    People get concerned about logging in Alaska. They need to 
look at what is really bringing the trees down. It is these 
spruce bark beetles. And this infestation is unchecked, out of 
control. It is probably the most significant terrestrial 
ecological disturbance to hit the south region, the south 
central region of Alaska in recorded history. And what it is 
doing is just putting fuel down on the ground for the next 
forest fire. And it is an issue that is, no pun intended, this 
is really a hot spot for our State.
    So I would like to know, Mr. Tenny, what the position, what 
the plan is for specifically dealing with the insect 
infestation. I was reading an article that was in the 
Washington Post a couple of days ago. Apparently, Forest 
Service Chief Bosworth was speaking to a House panel. And there 
was inquiry about, just as Senator Wyden had mentioned, the 
shifting of the funds, moving them from fire suppression--or 
moving to fire suppression. But it is apparent that a good deal 
of those monies were moved from the prevention of it, which, 
from my State's perspective, is very, very key.
    If we cannot do something to deal with the beetle kill and 
the fuel that we are putting on the bottom of our forests, we 
are going to have some forest fires in our State that will be 
beyond out of control and will truly threaten more than just 
the trees, but the residents of Alaska as well. So can you give 
me some guidance as to what we might expect?
    Mr. Tenny. Yes, Senator. First of all, I should note that I 
have a great mentor who knows Alaska very well. And it 
certainly is an area that is on the front of our minds all the 
time.
    The beetle infestation that you are referring to is 
something that, although I have not seen it, I have had it 
described to me. I have seen pictures. It is truly something to 
behold. And it does create a very significant risk. We have 
been increasing our work on the Kenai Peninsula. And our fuels 
treatment work is actually up, from what I understand, about 20 
percent with respect to where it has been. Is that enough? No, 
because of the nature of the problem you have described. It is 
expansive. It is far reaching. And it is pervasive throughout 
that part of the State.
    We are--the National Fire Plan dollars are available 
nationwide. They are available to Alaska, as well as to the 
lower 48 States. We have some new authority in stewardship 
contracting. It would be a good idea to look and see how that 
authority might play out and how we might apply that authority 
up in Alaska.
    We have the tools under the Healthy Forest Initiative that 
we would like to use where appropriate and where we can use 
those to address some of these situations as well, because the 
bottom line is we are talking about the risk that is being 
created out there because we are not getting ahead of the 
problem. The problem is ahead of us. And nowhere is it more 
pronounced than Alaska.
    I think last year, of the total acres that burned, Alaska 
led every other State in total acres burned. It is a little 
known fact, I think, but Alaska burns more acres on average per 
year than any other State.
    The problems that you have identified are real. They are of 
great concern to us. We would like to use the tools that we 
have and that we are getting and apply them there, along with 
the funding that is made available under the fire plan and take 
that trajectory that we are on, where we are increasing the 
number acres that we are treating, and see if we can take that 
out further until we can get to the point where we are doing a 
lot more than we are doing now.
    Five million acres, that is a lot of acres. But certainly, 
we can do better than we are doing now. And that is the intent. 
And that is certainly our objective.
    Senator Murkowski. Well, I would like to hope that the 
funding that you have referred to that can be made available--
and we will certainly work with you on that--that those are not 
lost, if you will, because we need to deal with the fire 
suppression, the anticipated fires that I think are quite 
likely this year.
    In Alaska, we are no different than anywhere else in the 
West this year. We have no--we have very little snow cover in 
the State right now, which is incredible for us. So we are 
anticipating a terrible fire year. So any help will be greatly 
appreciated.
    Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Akaka, do you want to ask some questions?
    Senator Akaka. Thank you very much, Mr. Chairman.
    The Chairman. You are welcome.
    Senator Akaka. Welcome to the panel.
    I would tell you, Mr. Chairman, that this hearing is very 
important for many of our communities. In Hawaii, we do have 
these kinds of problems also. Unfortunately, it appears that 
forest fires are inevitable and cost a lot of money.
    Mr. Tenny, in 2 out of the last 3 years, it has cost over 
$1 billion to contain and suppress forest fires across our 
Nation. Last year, it cost $1.4 billion for these efforts, and 
in 2002, it cost $1.3 billion dollars. If we were to undertake 
the programs proposed by the President to reduce fuel hazards 
in national forests in high risk areas near communities, how 
much would it cost over a 5-year period?
    Mr. Tenny. Well, I think that is a function of a number of 
things. Certainly one of the intents of the Healthy Forest 
Initiative is to improve our efficiency so that our unit costs 
for doing the work will be improved. In and around communities 
is a proposition that actually is an expensive proposition, 
because the cost per acre of treating areas around communities 
is greater in many cases, in most cases, than the cost per acre 
of treating areas that are not directly around communities, 
because of all the various issues that emerge when you are 
dealing with communities and areas in and around communities.
    An exact dollar figure for 5 years to do the entire amount 
of work that is out there would be very difficult to come by. 
It would be very large. The reason, because it is so large, we 
have had to take a look at how we set our priorities. And that 
is really the purpose of the 10-year implementation plan for 
the 10-year comprehensive strategy that we have put into place 
in cooperation with our Governors and with our counties and 
with tribes and others, because we recognize that we have 191 
million acres that are out there that are at risk.
    We have resources that are available to us, but we know the 
parameters and realities of budgeting and priority setting. So 
the idea is to go to the local level, working with the 
communities in a collaborative fashion, as outlined in the 
implementation plan, identify those areas that are of greatest 
priority and treat them as well as we can and as quickly as we 
can and as effectively as we can within the resources that 
together we decided we can allocate for those purposes.
    That is the approach we are taking, recognizing that there 
probably just is not sufficient funding to do the whole job 
that needs to be done, because that is the reality in which we 
operate.
    Senator Akaka. I am concerned about what has been proposed 
for the budget and the cost thus far per fire.
    If we accomplish all the necessary fuels reductions 
outlined in the President's proposals, can you predict 
confidently that it will make a measurable difference in the 
number of acres burned or number of fires controlled in an 
initial attack? And if so, how much?
    Mr. Tenny. Okay. I think that probably the best indicator 
of the value of the work that we do is identified by the 
communities that are benefitted by it. If you look at, for 
example, the areas where the Hayman fire burned, and we had 
portions that had been treated, where the fire burned to the 
ground in literally protected structures and communities 
because of that, the value of that to the community is 
incalculable. It is--for them, it was worth every penny, every 
effort that was taken.
    I think that the value of what we do, if we are able to 
accomplish all that we have budgeted for and that we plan to 
accomplish this year, it will have a real impact on or in and 
around those communities and in and around those watersheds 
where we are doing that work, because we have seen where it 
does have an impact. And it does have a positive impact on fire 
behavior.
    With respect to initial attack, I think you have hit the 
nail right on the head. The more successful we can be on an 
initial attack, given the conditions of drought, of over 
density, of insect and disease activity out there that is 
increasing the fire risk each year, the more successful we can 
be on initial attack, the lower our overall costs are going to 
be and the more effective we are going to be at being able to 
move forward on the proactive end in preventing the fires that 
are occurring out there.
    I think that if we are fully successful, if we can move 
beyond 99 percent successful in attack, on initial attack in 
controlling fire, then on the margin that is going to perhaps 
prevent a Hayman fire or prevent a Rodeo/Chediski fire, because 
we are able to get out there and suppress the fire before it 
gets to those proportions. And so I think that there is real 
benefit that can be derived from that.
    There are always uncertainties when you approach a fire 
season. There are things that you just do not expect or you do 
not know what will happen, because conditions change quickly. 
And we do not know what the weather is going to do. The only 
thing that we can really affect, the only thing that we can 
truly go out on the ground and manage is the fuels and the 
conditions in the vegetation. We cannot control the heat. We 
cannot control the wind and the weather. But we can control the 
fuels.
    And that is where we focus the attention and our effort, 
particularly under the Healthy Forest Initiative.
    Senator Akaka. Thank you very much, Mr. Chairman. My time 
has expired. I will submit my questions for the record.
    The Chairman. Thank you very much, Senator Akaka.
    Senator Craig.
    Senator Craig. A few moments ago, I believe in a question 
to Senator Bingaman and to others as it relates to bug kill, 
you used the word ``we are studying it.'' Foresters have been 
studying bug kill for decades. We know exactly how to treat it. 
We know what the problem is that creates it or brings greater 
infestations on. Why are we studying it? What do we find out by 
studying it instead of treating it?
    Mr. Tenny. The studying that I referred to is the applied 
type of study.
    Senator Craig. In other words, how do you get through the 
legal morasses of the day so that you can get out on the ground 
and do something proactive to stop the bug spread? How do you 
get through the court tests? How do you get through the 
lawsuits? Is that what you are suggesting----
    Mr. Tenny. That needs to be----
    Senator Craig [continuing]. How you thread the legal 
needle?
    Mr. Tenny. That is part of the equation. The legislation 
that we sent up last fall addressed some of those concerns. I 
do not think it addressed all of them. I think there are 
additional issues that have to be addressed and we have to look 
at together.
    Senator Craig. So the greatest impediment today to treating 
bug kill, to reducing fuel loading on our forest floors, to 
addressing five million acres of potential catastrophic fire in 
Alaska is not the knowledge or the talent of individual 
foresters. It is how you get through the legal morass that has 
been built up over the last multiple decades.
    Mr. Tenny. I think that is----
    Senator Craig. Is that a reasonable statement?
    Mr. Tenny. That is a reasonable statement. We do know what 
to do. We have the experience. And we are getting more all the 
time. And research is done on an ongoing basis so we can get 
better at what we are doing.
    Senator Craig. How much money will be spent on the legal 
side of things versus the actual thinning, cleaning application 
side of fuels treatment? Do you have a percentage of total?
    Mr. Tenny. I can tell you, based upon what the Forest 
Service prepared for the chief, there is about a quarter 
billion dollars that is spent annually on process. If we were 
able to do some of the things that were identified in the 
process predicament, the Forest Service estimated it would be 
able to save upwards of $100 million in process. That is real 
money. That is----
    Senator Craig. Or will you simply divert? When you see a 
legal obstacle over here, you will go somewhere where there may 
be less or it may be easier or the terrain or the habitat or 
the watershed may be such that it is ``less sensitive'' to 
certain environmental groups and/or to the application of your 
treatment. And so you simply divert practice to avoid legality 
and being hung up. How much of that goes on?
    Mr. Tenny. Well, I cannot say that it does not go on, 
because the----
    Senator Craig. Oh, yes, it does go on. We know that. Let me 
count the number of times in Idaho it has gone on.
    Mr. Tenny. And we have seen that, and that is one of the 
realities within which we operate. However, from a strategic 
standpoint, as we put together our program of work under the 
fire plan, under the implementation plan, the 10-year strategy, 
what we are looking at is where the work needs to be done, 
where the risk is the greatest. And that is where we are going.
    In some cases, we are challenged on that. And that is okay. 
People are going to challenge us. And we have to be able to 
answer those questions because we have the information that we 
need to answer those questions when we are challenged. Those 
challenges take time sometimes to work through. The process 
adds time. As that time is added, opportunities in some cases 
are lost.
    But the point is that we are looking at where the risk is. 
And we are going to where the risk is to address the problem. 
That is the whole purpose of the strategic plan that we are 
operating.
    Senator Craig. Sure. And the greater risk today is where 
people are.
    Mr. Tenny. That is a very big part of the risk.
    Senator Craig. In other words, if there are no houses near 
urban wildland interface, but it is a marvelous watershed of 
critical value and it is dying, you do not go there. You go 
where the trees are and the people are and the high risk to 
human structure exists. I mean, those are the options you have. 
And clearly, that is the battleground here that we face in 
trying to sort out how we apply or allocate resources.
    Well, I know your problem. We have to try to address that. 
You know, the great environmental story will be written in a 
decade or two that the environment killed the environment, and 
environmentalists sat by and watched it die and burn and tied 
the hands of those who tried to save it. And we ought to try to 
do something about it here. I know the chairman is committed to 
that, as am I.
    My last question: How many in the National Guard become 
active in catastrophic fire years like last year, that we might 
need this year, that we will not have this year because they 
might be fighting a war or they might be on critical standby 
for the purpose of national defense? And have you factored that 
in? And what do you do about it, if you cannot use their 
equipment, you cannot use their personnel, that are deployed 
elsewhere?
    Mr. Tenny. That is an important question that we have been 
grappling with here over the last several months. Last year we 
were able to call up a battalion from the Army. And they were 
available to do some of the work that we needed to get down out 
on the ground. We have had conversations, and are continuing to 
have those, in planning for the upcoming fire season with the 
National Guard and with the Department of Defense.
    From what I understand, based upon the information that I 
have been given from those who are having those conversations, 
we have the commitment to have the resources available when we 
need them, notwithstanding the prospect of a war. What that 
means, though, is that we need to be vigilant in communicating 
with our counterparts in the Department of Defense and the 
National Guard with respect to the forecast and when we are 
going to need these people. And those are the discussions that 
are taking place right now, so that those contingencies can be 
in place.
    Senator Craig. Well, I thank you. I am pleased to hear at 
least that that conversation is going on and that calculation 
is being made. That is critical, I think.
    The Chairman. Ms. Conlin, are you with them? Are you on 
your own in terms of returning to your office? Are with you 
with the other two people here testifying, or are you on your 
own?
    Ms. Conlin. I am on my own.
    The Chairman. You are excused. You do not have to listen to 
us if----
    Senator Craig. Well, I did have one more question of her.
    The Chairman. Well, we are finished with questioning, are 
we not?
    Senator Craig. Could I ask----
    The Chairman. Go ahead and ask it now.
    Senator Craig. I did not want you to feel lonely, Linda.
    [Laughter.]
    Ms. Conlin. I am just delighted to be here, that the 
connection is made between tourism and economic impact because 
of the fires. I am delighted to be here, Senator.
    Senator Craig. How does an area recover long-term? And I 
cite an example, Salmon, Idaho, south central eastern Idaho, 
2000, catastrophic fire, nearly a million acres burned. The 
town was shut down for 45 days. It was smoke covered for 30 
days. People with respiratory problems left town. It is the 
jumping off point for all the white water or most of the white 
water of the Greater Salmon River systems. All of that 
disappeared.
    I tried to help outfitters and guides that lost not only 
the summer outfitting, but many lost winter or the fall 
outfitting of elk and lost their businesses as a result of it. 
But we could not directly connect the fire-related situation to 
them, so they lost out.
    How do we deal with that? That is just a lost story as it 
relates to fire and fire impact. You have spoken to it today. 
Now many--these communities are small business communities. 
Small businesses do not have strong staying power in most 
instances--if they lose a season, they are lost--versus big 
businesses or counterparts or associates of big businesses.
    Some in Salmon benefitted. There were over 3,000 people 
deployed there at one time. There were goods and services 
provided. But by far, a majority of that community lost, 
because they lost their tourism season. How do we deal with 
that? And how do we respond to it? And how do we bring that 
tourism back quickly or communicate effectively? And are there 
programs being looked at to communicate that a fire in Salmon, 
Idaho, does not make all of Idaho burn, and there are other 
parts of our State or other States that are places to go see 
and do?
    Ms. Conlin. Well, Senator, it goes without saying that 
protecting the resource is absolutely number one, so that it 
continues to sustain travel and tourism over the long haul. 
Short term, it takes cooperation between States and cities and 
the Federal Government to really provide the information not 
only domestically but to international audiences about the 
extent of the damage, so that we indeed are still able to 
attract visitors to those places that were not impacted by the 
fires. So we need to really make sure that information gets out 
there.
    And thirdly, we need to work together cooperatively to 
continue to promote our public lands. And we do that. At the 
Department of Commerce, we work very closely with cities, with 
States, with regions. As I pointed out earlier, we have a very 
ambitious program with the Western States Policy Council to 
promote our gateway communities in the Western States in key 
international markets that are top international markets. So I 
think it is a combination of all of these three things, 
Senator.
    I would also like to point out that at the Department of 
Commerce we have a network of offices, domestic offices, of the 
United States and foreign commercial service, both here in the 
United States, as well as our commercial officers that serve in 
embassies throughout the world and in our key tourism-
generating markets. These officers directly work with us in 
trade development at the Department of Commerce and with the 
private sector in those countries to promote the United States 
and certainly our public lands, which are indeed our treasures.
    Senator Craig. Well, I thank you for that. We are headed 
potentially for another big fire year in the Northwestern tier, 
if you will. And, of course, it just so happens that we will be 
beginning the bicentennial of Lewis and Clark. And a fair 
amount of that country is the trail of Lewis and Clark. I hope 
we are able to connect the dots there and disallow that 
potential opportunity from being destroyed by fire.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Craig, let me just suggest, I think 
you remember, I am sure that these witnesses remember, that 
Healthy Forests, the major kickoff initiative, occurred on the 
floor of the Senate because New Mexico suffered the Los Alamos 
fire, which I think, I think, so far is the most expensive fire 
to the government, because it was determined to be through 
their negligence that it started.
    Therefore, compared to your towns, the Government paid for 
everything. So the 380 houses that burned, the business loss, 
meaning the case that you just described, was actually paid. 
They filed their claims. They had three claims offices, just 
like an insurance company. And the companies would have cost 
over $1 billion to pay everybody what they had suffered. It was 
huge in terms of the acreage that was burned, but nothing like 
a million acres, the things you have seen.
    Senator Craig. Yes.
    The Chairman. I believe that what I have--and as a result, 
so you will understand, we went to the floor. And the concern, 
the burning concern, was the urban interface issue, because 
that was a perfect example. We almost, through an urban 
interface fire, burned down Los Alamos National Laboratory. It 
happened that at least there was that much--the laboratories 
were insulated by many, many hundreds of yards, but their 
buildings were not. So significant buildings, none of which 
were dangerous, burned. The laboratory suffered something like 
$230 million in losses for building structures and the like.
    When we went to the floor, we decided that it was time to 
mandate that the Government determine where the urban interface 
situations were in the country. You all know now. You have gone 
through the exercise twice, I am told by my staff, in 
determining where they are. You are finishing that up so that 
States and localities and you all know this is a dangerous 
place. The urban interface is not yet completed and taken care 
of. And you are moving where you can in those areas.
    I believe that one thing you can do that we can look at in 
terms of your kinds of questions is to see whether or not the 
things that are available for a disaster are all available. We 
find that sometimes you declare a disaster from a hurricane, 
and you get certain kinds of relief. But you do not get the 
same kind of relief if it is a forest fire. And I think it 
would be good to look and make sure that it is just as broad.
    Secondly, just the presence of the Federal Government to 
help with tourism seems to me to be very important, if these 
people are all suffering, hurting. At least somebody comes 
there and says, ``We are going to help.'' And I would think 
that that is done by you and others, as you suffer the problem. 
I do not think we can write that into law. Either they care and 
are worried and help or they do not.
    From my standpoint, the urban interface remains a huge 
problem, because we can--if we burn down, as a comparison, we 
burn 350 houses in Los Alamos, or whatever the number, every 
big fire burned 80 or 90 or 100 houses.
    Senator Craig. We took down 2,000 houses last year.
    The Chairman. See, and these houses, nobody paid you for 
them. So those are huge, huge losses to the individual across 
the country. And I think the disaster relief might be looked 
at, not in terms of paying everybody for their loss, because 
the government then would be the insurer of all of this, but it 
would seem to me that maybe you can broaden the disaster relief 
to some extent there. And it might be helpful.
    Senator Craig. Well, Mr. Chairman, that is a valid point. 
The loss of a home, obviously homes are insured. They have fire 
insurance. And so I agree with you there. I think we need to be 
very careful that we do not offset it so people living in those 
environments say, ``Well, gee, we do not need insurance because 
the Government will come in and take care of us.''
    The Chairman. Yes. And we do not need to clean it up 
either, if it burns.
    Senator Craig. Right. But what we could not determine, but 
what was very determinable, at least when I went to outfitters 
and guides and said, ``How many cancellations did you have as a 
result of the fire?'' it was ``Well, we had X number. And here 
they were, and here they are canceled. And that cost us so much 
money.''
    And we say to a small business, ``How much business have 
you done on the average over the last 3 years versus how much 
did you not do this year?'' Those are very real figures that 
are documentable. And they are not covered in many instances. 
FEMA does not pick them up.
    You are right, though, if it were a hurricane, then that 
would be a different environment.
    The Chairman. Yes. I would suggest to you, and it may not 
be worth it at this late date, but I would suggest to you that 
the files of the settlements with the businessmen and 
businesswomen of Los Alamos might reveal a formula that might 
be more helpful than what FEMA is currently doing, because they 
went through months of arguing with the business community. And 
they paid almost all of them for some business loss; not 
joyously, not without rancor. But there was a formula 
eventually that her little business in jewelry got some money, 
and his restaurant got something. And it might be that that 
formula should be transferred over to be applied more 
generally.
    Senator Craig. We will take a look at that. Thank you.
    The Chairman. Let me close my questioning by suggesting 
that we are going to remain interested here in this committee 
for the time I am chairman with common sense approaches to your 
problems. That is, where are you running into impediments to do 
things that make sense, that are common sense? And we want to 
try for, in spite of laws that say to the contrary, ``Where is 
the common sense solution?'' And then if it requires that we 
seriously debate why the law is not applying common sense, we 
are glad to do that. We are glad to try to amend laws that are 
causing conduct to be totally without a common sense approach 
to our forests.
    If we do not do that, it seems to me that we are going to 
get nowhere except one group is going to blame another group 
for what Senator Craig has described as the gradual, if not 
more sudden, demise of what used to be great forests. I can 
tell you, I am not from a State like Senator Craig's, although 
mine has plenty of forests and plenty of beautiful things to be 
seen. But when I was young, the forests were beautiful places 
to just go walk, because you could walk, you could see. As a 
matter of fact, I think I have told Senator Craig, as a member 
of an Italian community in Albuquerque, we used to visit 
regularly the mountains around Albuquerque because mushrooms 
just like mushrooms from Italy grew in those beautiful forests. 
And you could go up on a Sunday and they were there.
    Most of the forests now are so cluttered tree to tree that 
you could not walk, if you wanted to. And those are--I think 
those are the kind of real examples of what has happened that 
is not what we would like to be the case 10 or 15 years from 
now.
    With that, I am going to yield to Senator Murkowski for her 
questions. And then we will recess.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Just very, very quickly, and this is probably best directed 
to Assistant Secretary Scarlett. This is as the fire management 
plans might relate to wilderness. It is my understanding that 
if you have a wilderness area, there is nothing motorized that 
comes in. You cannot bring that motorboat in. You cannot bring 
that chainsaw in. So if we have a spruce bark beetle 
infestation and we have whole areas of a wilderness area, an 
area that has been designated as wilderness, then any kind of 
management plan would not apply. Am I correct in that?
    Ms. Scarlett. I would respond to that in two ways. For the 
most part, first in Alaska, you have forests that are in what 
we call condition class one. That is, they are in their natural 
healthy condition for the most part. And that is, of course, a 
great benefit and virtue of Alaska.
    On the other hand, as you pointed out, you do also have 
some communities increasingly that are wildland urban interface 
communities. And where you have what might be a natural 
cyclical problem with disease or otherwise, it might then start 
to affect that community.
    What we are trying to do in terms of our prioritizing, as 
has been discussed today with treatments, is not go out in 
those areas where the forests are generally in healthy 
condition and have their cyclic patterns of behavior and are 
not near communities, but rather to target our efforts in areas 
right around communities, such as one that you did describe, 
which is in some--which is experiencing some problems with 
infestations.
    And so certainly that WUI community would be among those 
potentially eligible for us going in and doing some treatments 
to help to prevent the risk of loss of property, loss of lives, 
and further environmental damage.
    Senator Murkowski. You used the word ``treatments.''
    Ms. Scarlett. Yes. That is our lingo for going in and 
actually removing the diseased timber, removing underbrush. And 
it is important to note that this is not simply about thinning 
and leaving stuff there so that it actually further creates a 
prospect for conflagration, but going in, thinning, pulling out 
the material.
    Now that will not treat the disease, it is important to 
note. But what that can do is prevent the potential kind of 
exponential spread. But again, I do want to underscore that we 
are talking about WUI areas here, not outright wilderness 
areas.
    Senator Murkowski. I guess that is a concern that I have in 
the Chugach National Forest. This is an area where certain 
parts of it are being considered as wilderness designation. 
That national forest happens to be adjacent to quite a handful 
of population centers. Now they are not population centers like 
the good Senator from New Mexico was talking about. But these 
are communities, the little community of Moose Pass, very, 
very, very concerned that there will be a fire. And if we have 
not in fact done something to address just the fuel buildup 
there, then their communities, their homes, their livelihoods 
are going to be at risk.
    There is a concern here that: Well, what happens if, in 
fact, we have gone from a situation where it is just the 
Chugach National Forest to an area that has now been designated 
as wilderness? And I want to make sure that my constituents are 
not at risk because we have decided to take a hands-off 
approach because it has now been designated as wilderness.
    It is one thing if we have healthy forests. But as I 
mentioned earlier, in many, many parts of the State, these are 
sick and diseased trees because of an infestation that--we have 
not brought this upon the forests. It has not been due to the 
fault of anybody living in that area. It is just a sickness 
that is traveling through our forests.
    I want to be assured that in fact these residents that are 
living near these areas are not going to be at risk either for 
life or property injury.
    Thanks for your comments.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski, thank you very much.
    I am always amazed and have watched Alaska over the years, 
that during the peak of the fire season when thousands of acres 
will be burning somewhere in Alaska, by the character of that 
State. And of course now, as it populates more, as you have 
said, obviously it becomes even critically more important, even 
though the destruction of potential resource value timber is 
ongoing.
    Senator Murkowski. I just have to share a comment. This 
summer we had some terrible fires out in the interior. And a 
constituent who had a mining operation, a significant mining 
operation that was in the path of the fire, contacted me and 
said, ``What can be done to save my property, my assets?'' His 
life savings had been invested in it. And we were told by the 
Forest Service that the plan was to hope for a change in the 
wind. And, you know, the good news for him and for his family 
was that the wind changed.
    The Chairman. The wind changed.
    Senator Murkowski. But he has the pictures that show just 
where that wind changed. And it was too close for comfort. I 
appreciate the opportunity to have this discussion this 
morning.
    The Chairman. Well, I thank you all very much. Obviously, 
this committee remains extremely concerned about your 
preparedness and your ability to be prepared and to continue to 
be and the deployment of resources not only to fight the fire 
or to become proactive in our forests to improve their 
environment, to improve their health and the vitality of the 
habitat. Clearly, we are trying to do that. Some are 
misinterpreting it. Some are trying to argue otherwise. I think 
the clear intent of a majority of Congress is to assist you in 
assisting our forested lands to become healthier.
    I have just visited with the people of Elk City. I ask you, 
Dave, to take a note of that. The bug kill there is such that 
the fire scenario now coming is not unlike the San Bernardino, 
where in many instances you have one road in and the same road 
out. And if a catastrophic fire hits, I said to the mayor, 
``What do you do?''
    I do not recall the name of the meadow. I am talking 
meadow, but there is a stream that flows through it. He says, 
``We will all run to the meadow, and we will plow out a ways as 
quickly as we can and we will hunker down, because we will not 
be able to get out.''
    That is what happens. And that is what will happen in the 
San Bernardino area, if we are not careful. If you read the 
Governor of California's proclamation, it is in itself almost a 
proclamation of a state of emergency. In fact, he even gives 
authority for State authority to go onto private lands to thin 
and clean. I find that very unique, that the condition has 
built there to such an extent that a governor feels he must 
declare a state of emergency, not only to try to save the 
resource, but to protect the people.
    There is a great sense of alarm in that area now about 
access or the ability to get out in case of a catastrophic 
fire. I will not go beyond that. But I understand, in having 
visited with some, that that very much is the situation, 
largely what probably prompted the governor to act. I am amazed 
that on one hand he will declare a state of emergency and 
almost marshal law, and on the other hand he will criticize the 
ability to do that on Federal lands in other places in the 
countryside. That is the miscommunication or the 
misunderstanding of today's situation, I would guess.
    We thank you all very much. We will stay current on that.
    You have obviously heard two members of the Budget 
Committee not at all happy with the ability or the resources 
available to fight fires potentially this summer, and what we 
need to do. Because when--my notes show that when Under 
Secretary Mark Rey testified here some weeks ago, he said that 
the Forest Service had $445 million in backlogs in fire rehab 
and restoration projects, $445 million, from fires that burned 
in 2000, 2001, and 2002.
    Now we are not only not getting into thin and clean, we are 
not getting in after the fact to rehab. And mother nature can 
be pretty severe in a reasonably small event to catastrophic 
erosion, if we are not allowed to move swiftly and quickly in 
to do that kind of rehab. And if we are taking money from one 
account to move it over to another, that kind of things 
happens. So this has to be corrected.
    My message to you for those you work with, for Mark Rey and 
for the chief, is: Let us take a revisit at this. We know where 
the administration is at this moment. I think that strongly the 
likelihood is that they are going to get more resources to deal 
with, and we are going to have to decide how they get deployed. 
And that is your job, to effectively respond not only to the 
current fire season upon us, but also to the idea that once 
burned, we just sit and watch it and let mother nature do even 
more damage and that we cannot go in and do rehab or 
restoration because we have used up our resources.
    I thank you all very much for your time and your tolerance 
this morning.
    The committee will stand adjourned.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                       U.S. Department of Commerce,
                        International Trade Administration,
                                     Washington, DC, April 8, 2003.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Thank you for giving me the opportunity to offer 
testimony before the Committee on Energy and Natural Resources on March 
13, 2003. I am glad the Committee was able to conduct a hearing on the 
impact of last year's fires and the outlook for the 2003 fire season.
    Enclosed please find my answers to the supplemental questions you 
provided me on March 14, 2003.
    If you, or your staff, have any additional questions, please do not 
hesitate to contact me or Erin Mewhirter, Acting Director, Office of 
Legislative and Intergovernmental Affairs, at (202) 482-3015.
            Sincerely,
                                           Linda M. Conlin,
                         Assistant Secretary for Trade Development.
[Enclosure]
              Responses to Questions From Senator Domenici
    Question 1. Ms. Conlin, you have made the point that tourism sells 
in many of these forested areas because of their forested nature and 
natural beauty. I know you have seen some of these areas after they 
have burned. In your opinion are most tourists traveling across the 
country, or indeed, around the world to visit areas that have been 
devastated by these wild fires?
    Answer. Generally speaking, I do not believe that tourists want to 
visit areas that have been devastated by fire. Curiosity may cause a 
visitor already in the area to view a devastated area, but tourism is 
built on positive experiences, engaging in the activities of the area. 
When the purpose of a trip is to see the ``beauties of nature,'' 
viewing a decimated area will not fulfill that purpose.
    Question 2. Have you found in your research any information on the 
affects of large amounts of heavy smoke that these fires produced on 
tourism in the down wind cities?
    Answer. Our research does not cover any of the environmental 
impacts on tourism, but we have heard of curtailed business in some of 
these communities during the heaviest smoke-laden periods. Phoenix 
experienced quite a bit of residue and thick smoke over some of its top 
tourist areas, such as Scottsdale, for example, which restricted 
golfing and other outdoor activities.
    Question 3. You have pointed out that international travelers, and 
to a lesser extent domestic travelers, have been changing their plans 
when they see reports of large fires in a state, even though those 
fires are not in the area they were slated to visit. When that happens, 
are those tourists coming to this country and avoiding those states 
that have fires, or are they going to different countries instead?
    Answer. International travelers generally will not visit a state 
with fires because they are unsure of the specific areas that are 
affected. While some potential visitors might cancel their travel 
plans, most travelers will still visit the country, but they will go to 
other destinations.
    Question 4. I know that your agency is mostly interested in 
international tourism, but I am also aware that your people have 
gathered a lot of information on the impacts on tourism due to these 
fires. Given your broad knowledge of this industry: Can you give me 
your thoughts on what happens to local tourism based industries in 
areas that have burned heavily, such as the Bitterroot Valley in 
Montana did in 2000, or the Show Low, Arizona area did in 2002?
    Answer. As I mentioned before, Arizona's fires were the worst in a 
century. Data is still being calculated, and the continued passage of 
time will tell a more complete story. Based on the information I've 
alluded to there is no question that the tourism-based industries and 
local economies have been negatively impacted by the fires. In 2002, 
Arizona's lodging, national and state park visitation reports show 
sluggish performance in the specific areas affected by the fires.
    The Arizona Department of Revenue saw declines in lodging and 
lodging tax revenue in 2002 compared to 2001. Sales tax and employment 
were also adversely affected. Arizona national and state parks reported 
state-wide visitation declines with the parks closest to the fires 
reporting the steepest declines.
    The Arizona Office of Tourism reported that wildfires might have 
affected travel decisions for national park visitors. The Rodeo-
Chedeski fire and media reports of wildfire activity likely affected 
visitor patterns and discouraged travel to some of these areas.
    Question 5. Many of these fires cause land disturbances and result 
in trails and roads being closed due to the danger of falling trees, 
sometimes for several years after the fire. In your experience, when 
the tourist cannot access the areas that they had repeatedly used 
before, and they have to shift their recreation activities to other 
areas, what happens in the long run--are they likely to come back to 
the burned area, or will they simply develop a new favorite area to 
visit in the future?
    Answer. A lot depends upon the area's ability to rebuild and 
recover from the fire. Part of the recovery also includes providing 
information to the public that they are open for business again. While 
this is happening, many frequent travelers may form an appreciation for 
a new favorite destination at the expense of the old site. So, some of 
the loyalty could be lost. In contrast, with the rebirth of the 
destination and an aggressive campaign to attract visitors, a new 
clientele will hopefully be developed. The key is having the resources 
to rebuild and inform potential visitors about the attraction or 
destination. Unfortunately, many states lose the needed resources to 
fighting fires.
                                 ______
                                 
    [Note: Responses to the following questions were not 
received at the time this hearing went to press.]

 Questions From Senator Akaka for Dave Tenny, Deputy Under Secretary, 
              Natural Resources and the Environment, USDA
              public education and private sector programs
    There is conclusive scientific research and technology available to 
protect structures from forest fires--homes, businesses, buildings and 
the areas immediately adjacent to those structures. In this area we can 
have a direct impact on property loss and fire spread in communities.
    Question 1. Would you agree that public education and private 
sector cooperation, in preparing lands and buildings to resist 
wildfires, is an essential feature of wildfire management?
    Question 2. Why has the community assistance portion of the 
National Fire Plan been zeroed out in the President's FY 04 budget 
request? Additionally, why have the burned area restoration and 
rehabilitation programs received decreases in funding, culminating in a 
request of no funds for FY 04?
    Question 3. With these decreases, how do you plan to foster private 
sector cooperation to use the technology and research we already have, 
in order to save homes and buildings in the wildfire interface?
                                 ______
                                 
                    Questions From Senator Campbell

    When we talk about fire danger in the west, we must be mindful of 
fire's effect on water. As you know, catastrophic wildfires can have 
catastrophic effects on watersheds where towns and cities located below 
the National Forest boundary get their water. Denver is still paying 
millions to try to recover from the devastating effects that the Hayman 
Fire has had, and may still have, on the city's water supply. Durango 
is struggling with similar issues in the wake of the Missionary Ridge 
fire.
    Colorado and much of the West is experiencing the worst drought on 
record. When I am back in Colorado talking to water users, they are 
concerned about the threat of ash and sediment from wildfires clogging 
their ditches, reservoirs, and drinking water intakes in the middle of 
this drought.
    Question. Mr. Tenny, I would be interested to learn a little more 
about how the Forest Service is working with local communities to guard 
against future water contamination due to fires, as well as what they 
are doing now to rehabilitate those affected watersheds.
    From your response, the Forest Service seems to really appreciate 
the effects fire has on existing municipal water supplies and is 
willing to work with the state.
    Recognizing the drought conditions that the West, in particular, is 
facing, I think that it is more important than ever for the Forest 
Service to commit to work with the states in good faith on water 
issues. Unfortunately, some in the Forest Service have tried to impose 
bypass flows in our national forests, and circumvent working through 
state instream flow programs. You are aware that bypass flows are 
estimated to cause a reduction in the dry-year water supplies available 
from water facilities on National Forest lands by 50 to 80 percent?
    Isn't the Forest Service's official policy to work with the states, 
pursuant to state law in administering water?
    Can I tell city officials in Colorado, as well as farmers and 
ranchers, that you and the Forest Service, in general, are committed to 
working through the state instream flow program and eliminating the 
perception of threats to existing water supplies by imposing bypass 
flows?
    Question. Colorado experienced its worst fire season on record last 
summer. My compliments go to the brave men and women who risked their 
lives to fight these fires. We also learned some lessons last summer 
and maybe you can tell me what adjustments we are making in 
anticipation of this year's fire season.
    Particularly, how do we use our local resources in suppression 
operations?
    How do we follow up with our communities to make sure we are 
reducing the risk?
    One other thing, with the drought and the forest conditions what 
can we do better during the first 72 hours of a fire?
    Question. Wildfires always seem to bring a lot of attention to the 
forest management problems facing our national parks. However, interest 
and coverage of these problems seem to wane as the fires die out.
    In fact, remediation and rehabilitation in the aftermath of a fire 
that is often the most costly and difficult part of the process. 
Reseeding, erosion control, and preservation of archeological sites are 
costly and beyond the budget and resources of most national parks.
    Parks in my home state of Colorado received monies through the 
Burned Area Restoration Program, but still are several million dollars 
short of funding to save resources damaged in last summer's fires.
    How are you going to handle these budget shortfalls?
    Question. Every state is facing significant fiscal challenges as 
they grapple with budget shortfalls. Tourism is Colorado's second 
largest source of revenue, contributing approximately $7 billion in a 
normal year.
    Unfortunately, the 2002 fire season was not a normal year. Although 
hard numbers are still being gathered, the Hayman, Missionary Ridge, 
and other fires cost the state of Colorado billions in tourist revenue.
    In response to the fires in 2000 and 2002 park visits dropped 40% 
in the months of July and August in Mesa Verde Park in Durango. Closure 
due to wildfires reduced their overall visitations by almost 30% for 
the year. Correspondingly, the surrounding community of Durango 
suffered a 26% drop in tourist-related revenues. Clearly, this 
reduction in visits reduces their revenues and overall projected 
budget. We have then what amounts to a triple hit to the Park's 
available funds--those used to fight fires, those used for cleaning up 
the damage caused by fire, and a loss of overall revenue because of 
closures due the fire.
    What sorts of plans are in place to handle this type of unplanned 
funding deficit?
    Question. I would like to commend the efforts of Mesa Verde Park 
Superintendent, Larry Weise, and his staff for saving park resources, 
structures, and most importantly, lives, in last year's devastating 
Missionary Ridge fire near my hometown of Ignacio, CO.
    Obviously, as fires are raging, there is not time to draft and 
complete Environmental Impact Statements (EIS) for fire-fighting 
efforts. I am wondering what kind of flexibility you are going to give 
parks in the future in dealing with wildfires when sufficient time does 
not exist to complete the EIS process?
    Question. As you know, thinning projects have been very successful 
in my home state of Colorado. Partnerships between parks and local 
communities have particularly been effective in reducing fire risk in 
the critical urban interface areas. How do community-based thinning 
programs fit into the Park Service's wildfire reduction plans in the 
future?
                                 ______
                                 
                    Questions From Senator Cantwell

    Question 1. In your testimony, you indicated that the U.S. Forest 
Service and the Department of the Interior performed hazardous fuels 
reduction activities on a total of 2.2 million acres, of which almost 
1.0 million acres were in the wildland urban interface.
    Of the approximately 1.0 million acres treated in the wildland 
urban interface in 2002, approximately 764,000 acres of National Forest 
lands were treated. Of these 764,000 acres, how many acres were treated 
within one-half mile of ``at-risk'' communities as listed in the 
Federal Register (66 F.R. 753)?
    In 2003, the Forest Service estimates that it will treat 
approximately 893,000 acres in the wildland urban interface. However, 
in 2004, the Forest Service proposes to treat 716,000 acres. Can you 
explain why the agency would reduce the acreage treatment in high 
priority areas?
    To better understand the actual work performed, can you provide the 
Forest Service's definition of wildland urban interface?
    Question 2. My understanding is that the most effective way to 
reduce the risk to communities is to focus hazardous fuels reduction 
efforts on the wildland urban interface. Given the limited nature of 
funds for hazardous fuels reduction, what is the rationale for treating 
more lands outside the interface zone, than inside, in 2002?
    Question 3. Of the seven million acres that burned during 2002, 
please provide a breakdown of acreage burned according to the following 
classifications:

          (1) Productive forest land on the National Forest System 
        (lower 48)
          (2) Productive forest land on the National Forest System 
        (Region 10)
          (3) Unforested and non-productive forest land on the National 
        Forest System
          (4) Forested BLM lands
          (5) Unforested BLM lands outside of Alaska
          (6) Unforested BLM lands (Alaska State Office)
          (7) National Park System lands
          (8) National Wildlife Refuges (except for Region 7)
          (9) National Wildlife Refuges (Region 7)
                                 ______
                                 
           Questions for Lynn Scarlett From Senator Domenici

    Question 1. Please provide the Energy and Natural Resource 
Committee a list of all known major insect and disease outbreaks (over 
300 acres in size) by State. Include data on the rate of spread, what 
steps have been taken to control the spread, sanitize the infestation, 
or salvage the timber killed by the pathogen. Additionally, provide 
data on each project including NEPA documents that have been started 
and when they are expected to be completed. Finally, please indicate 
when each project is expected to be implemented (a copy of the desired 
format is attached additional information can be added).
    Question 2. I understand that fires that burn in the boreal forests 
tend to produce very high levels of green house gases and other 
pollutants such as mercury, due to the amount of duff and peat that are 
consumed. What has the Department of the Interior done to study those 
fires and are your fire suppression people considering that pollution 
when they decide whether or not to fight these fires?
    Question 3. Which states and areas are you most concerned for in 
terms of Department of the Interior lands, if we have another bad fire 
season this year?
    Question 4. Can you highlight areas on Department of the Interior 
lands that are at an increased risk of fires as a result of insect, 
disease, or recent windthrow?
    Question 5. In terms of this upcoming fire season, what are the 
biggest challenges your agencies face?
    Question 6. We know that the BLM, in terms of both budget and 
number of employees, is quite smaller than the Forest Service, yet it 
has a large number of people who serve on fire fighting overhead teams 
and fire fighting crews. How did the 2000 or 2002 fire seasons affect 
the other work that the agency was expected to complete?
    Question 7. We are now three years into implementation of the 
National Fire Plan and should be getting some idea of what has worked 
as planned, and what changes might need to be made. Ms. Scarlett, from 
where you sit today, in terms of implementation of the National Fire 
Plan, are there any parts of that plan that need to be updated or 
changed?
                                 ______
                                 
             Questions for Dave Tenny From Senator Domenici

    Question 1. Please provide the Energy and Natural Resource 
Committee a list of all known major insect and disease outbreaks (over 
300 acres in size) by State. Include data on the rate of spread, what 
steps have been taken to control the spread, sanitize the infestation, 
or salvage the timber killed by the pathogen. Additionally, provide 
data on each project including NEPA documents that have been started 
and when they are expected to be completed, and finally please indicate 
when each project is expected to be implemented (a copy of the desired 
format is attached additional information can be added).
    Question 2. What steps can the Federal government take to be good 
neighbors, before the start of this coming fire season, in order treat 
federal stands that are adjacent to those areas target by Governor 
Davis's Emergency declaration?
    Question 3. I would also like to know what we can do in other areas 
where we have huge insect and disease outbreaks to clean them up before 
they burn?
    Question 4. I have seen a number of reports on some of the damage 
that was done to Mexican and Northern Spotted Owl activity centers in 
Arizona and Oregon last year. Can you expand upon that information for 
some of the other areas that have burned over the last three years and 
some of the other threatened or endangered species habitats that have 
been impacted?
    Question 5. Has the agency made any systematic nationwide attempt 
to assess the damage, and the impacts of that damage to Threatened & 
Endangered Species, caused by these large catastrophic fires over the 
last decade?
    Question 6. At least twice in the last three years we have seen 
relatively small rain storms after fires that have done significant 
damage to the burned watersheds. The one I am most familiar with is the 
Viveash Fire in 2000 in New Mexico, when rains caused terrible damage 
to those watersheds. This past year after the Missionary Ridge Fire, 
outside Bayfield and Durango, Colorado, rains did significant damage as 
well. Could your people put together a study to examine the short and 
long-term costs of having to deal with these rain-after-fire events 
over the last decade?
    Question 7. Please describing the air pollution problems that these 
fires cause, and what your people do, in relation to the health of the 
fire fighters, when they are exposed to these pollutants day-after-day?
    Question 8. I understand there have been a number of instances over 
the last couple of years that have caused State environmental 
protection agencies to consider evacuation of communities due to poor 
air quality during these large project fires. What are the costs of 
this type of air pollution on these communities and on your fire 
fighters?
    Question 9. How many acres of planned hazardous fuels treatments 
and burned area rehabilitation and restoration projects had to be 
terminated in 2002 because funding for those activities was transferred 
to fire suppression?
    Question 10. How many years will it take to treat the total number 
of acres currently in condition class 3 status under a ``best-case-
scenario'' analysis?
    Question 11. Wildfires are getting bigger and more expensive to 
fight. The 2002 wildfires cost both the USDA and DOI over $1.4 billion 
and scorched over 7.1 million acres. The National Fire Plan is designed 
to address wildfire threats on all lands, public and private. What is 
the Administration doing to provide wildfire assistance for State and 
private lands? What are the needs?
    Question 12. How are State and local firefighting resources 
integrated into federal wildfire suppression response?
    Question 13. Are State and local officials integrated into the 
decision making process?
    Question 14. I see from Forest Service harvest data that in the 
late 1980's you harvested 650,000 and 960,000 acres of forest a year in 
some type of treatment. During those years the agency was very focused 
on getting insect and diseased killed trees harvested and removed 
before they were hit with fires. In 2001, that level fell to less than 
250,000 acres. Now the Forest Service is having a devil of a time 
getting these areas treated before they are hit by fire. What has 
changed since the 1985-1990 period and today? It seems to me that the 
same laws, and many of the same regulations that were used then are 
still in place. If that is the case, then what has caused the change in 
the number of acres?
    Question 15. Given the Administration's policy initiatives and the 
new stewardship contracting authority that you've been provided, is it 
possible to increase treatment levels in these high risk stands above 
the levels we saw treated in the 1980's?
    Question 16. What is the Forest Service's policy on priority when 
it comes to large insect infestations--do they still receive the 
highest priority for treatment?
    Question 17. In the past the Forest Service has acquired the 
equipment from DOD. I understand the program to do this was changed 
last year, and the FS and the States are no longer eligible to receive 
equipment during the initial screening phase of this process. As a 
result, there is great difficulty in finding suitable equipment to 
provide to the local and volunteer fire departments. What is the Forest 
Service's position on this issue?
    Question 18. Would you support legislation to restore the Forest 
Service and your State partners to the initial screening phase for this 
excess equipment that is no longer needed by the Department of Defense?
                                 ______
                                 
                    Questions From Senator Feinstein

    Question 1. I have a question for Deputy Under Secretary Tenny 
about the bark beetle problem. San Bernardino National Forest 
Superintendent Gene Zimmerman has told my staff that he believes 
solving the bark beetle problem will require at least $300 million 
dollars, including approximately $5-6 million which is needed 
immediately simply to insure that evacuation routes are maintained, 
critical fire breaks are established and the necessary manpower and 
equipment is on hand. The omnibus provided about $3.3 million for this 
problem, which is a start but not nearly enough. How does the Forest 
Service intend to address this problem?
    Question 2. As I said before, I think that when the fires are being 
fought this summer, all us want a budget that is safe from raids on 
fire prevention measures or on projects building rural forestry 
infrastructure. Assistant Secretary Scarlet and Mr. Tenny, can you 
seriously commit to us to support such a budget? What can you do to 
produce such a budget?
    Question 3. Last fall, the National Academy of Public 
Administration suggested that Interior and the Forest Service could 
make firefighting more efficient. Ms. Scarlet and Mr. Tenny, what can 
you do to save scarce federal dollars in response to this report?
    Question 4. I recently had the pleasure of meeting with Wally 
Covington and Senator Kyl on fire-related issues. Professor Covington 
talked about how fuel reduction treatments in ponderosa pine and 
similar low elevation stands are very different from what treatments 
would be applicable in higher elevation, wetter forests. Mr. Tenny, do 
you agree that there is a stronger case for thinning treatments in the 
lower elevation forests that naturally had high frequency, low 
intensity fires that regularly cleared out the underbrush?
    Question 5. There are far more acres needing treatment than what we 
can treat in the next few years. I believe there are as many as 73 
million acres of Category 3 lands alone. My question is whether we can 
start out by treating portions of the landscape to reduce fire risk. 
For example, there is a strategy known as Strategically Placed Area 
Treatments that has been used in the Sierra Nevada Framework as an 
effort to treat 30-40% of the landscape, in order to prevent fires from 
reaching catastrophic levels and spreading across miles and miles. 
Similarly, the Quincy Library Group project relies on Defensible Fuel 
Profile Zones, broad fuelbreaks. Mr. Tenny, do you think these 
strategies of treating select areas have promise?
                                 ______
                                 
               Questions for Mr. Tenny From Senator Smith

    Question 1. How are you involving universities in the science, 
education and tech transfer parts of National Fire Plan?
    Question 2. With respect to air assets available for the 2003 fire 
season, U.S. Forest Service studies show that large, heavy-lift 
helicopters used on initial attack that can insert and/or rappel ground 
firefighters and then immediately follow up with water or retardant 
drop operations are an extremely effective firefighting tool.
    What plans does the Forest Service have to contract for this type 
of aircraft for the 2003 fire season?
                                 ______
                                 
                      Question From Senator Wyden

    Question. With respect to air assets available for the 2003 fire 
season, U.S. Forest Service studies show that large, heavy-lift 
helicopters used on initial attack can effectively insert ground 
firefighters and follow up with water or retardant drops. What plans 
does the Forest Service have to contract for this type of aircraft for 
the 2003 fire season?


</pre></body></html>
